<html>
<title> - HAYES NOMINATION</title>
<body><pre>[Senate Hearing 111-9]
[From the U.S. Government Publishing Office]



                                                          S. Hrg. 111-9
 
                            HAYES NOMINATION

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   TO

 CONSIDER THE NOMINATION OF DAVID HAYES TO BE DEPUTY SECRETARY OF THE 
                                INTERIOR

                               __________

                             MARCH 12, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
48-390                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bayh, Hon. Evan, U.S. Senator From Indiana.......................     2
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Hayes, David J., Nominee to be Deputy Secretary of the Interior..     4
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    25

                              Appendix II

Additional material submitted for the record.....................    45


                            HAYES NOMINATION

                              ----------                              


                        THURSDAY, MARCH 12, 2009

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:37 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Ok. Why don't we start out? The committee 
meets this morning to consider the nomination of David Hayes to 
be the Deputy Secretary of Interior.
    Mr. Hayes is well known to many of us on the committee from 
his previous service in the Department of Interior during the 
Clinton Administration. He served as Counselor to Secretary 
Babbitt from 1997 to 2000. As the Deputy Secretary of Interior 
in 2000 to 2001, Mr. Hayes is plainly very well qualified for 
the office to which he's been nominated since he served in that 
office before with great distinction.
    While at the Department before he handled many of the 
Department's most challenging issues including the acquisition 
of the Headwaters Redwood Forest, the restoration of the 
California Bay Delta Ecosystem, negotiation of habitat 
conservation plans under the Endangered Species Act, Indian 
Water Rights settlements and energy development on the public 
lands. We're fortunate to have someone of his experience and 
ability agree to return to the Department for a second tour. I 
hope we can confirm his nomination as soon as possible.
    Let me call on Senator Murkowski for any statement she has. 
Then we would of course, hear from our colleague Senator Bayh 
as well. Go ahead, please.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Thank you, Mr. 
Hayes for appearing before us today and for your willingness to 
serve in the position of Deputy Secretary, again. Either you 
really enjoyed the job last time or you're a glutton for 
punishment. But either way, we appreciate your willingness to 
serve.
    I have described the President's budget blueprint as a war 
on domestic production. Subsequent Administration testimony has 
not altered my opinion on this. I think that we have to take 
every reasonable opportunity to promote clean, alternative 
sources of energy. We certainly hope that these measures will 
bear fruit.
    But I believe that with all of the hopes, and all of the 
wishes for where we're going with renewables it's not going to 
change the reality that the vast majority of Americans are 
going to run their cars on petroleum for the foreseeable 
future. Punishing the domestic oil and gas industry will not 
bring the age of renewable energy any faster. I believe it will 
increase our dependence on foreign oil and further threaten our 
energy and economic security.
    The President's budget proposals would have this Nation 
turn its back on workers in the petroleum industry, raise 
prices for American consumers and increase the export of 
American dollars, all in one fell swoop. At this point in time, 
our Nation can't afford any one of these, much less all of 
them. I hesitated to use this forum for a statement on where 
we're going, but I think we realize that we don't have that 
many opportunities as individuals come before us for the 
confirmation hearings to make these statements. So I did feel 
it was important to make sure that we do have a balance within 
our policies.
    I do understand, Mr. Chairman that there may be questions 
asked of Mr. Hayes regarding details of the matters as they 
relate to lobbying. I would like to take a moment to note that 
the committee received an allegation regarding lobbying 
activity by Mr. Hayes, stating that he was in violation of the 
ban on high ranking officials regarding or returning to lobby 
their old agency for a period of 1 year. Republican and 
Democratic committee staff worked together to conduct an 
extensive review of this allegation including interviews with 
relevant parties.
    At the committee's request the Acting Inspector General of 
the Department of Interior has reviewed all available records 
from 2001 including visitors, logs, calendars and electronic 
mail, and we have not found the allegation of improper conduct 
by Mr. Hayes to be substantiated. So I just wanted to put that 
within my opening statement.
    The Chairman. Thank you for----
    Senator Murkowski. To welcome Mr. Hayes. Thank you.
    The Chairman. Thank you very much for that statement. Our 
colleague Senator Bayh has asked permission to introduce Mr. 
Hayes to the committee. We're glad to have you do that.

           STATEMENT OF HON. EVAN BAYH, U.S. SENATOR 
                          FROM INDIANA

    Senator Bayh. Thank you very much, Mr. Chairman. After your 
very gracious introductory remarks I'm tempted to just say, 
Amen and get on with the business of the committee. But I have 
prepared a very brief statement. If you would permit me, I will 
present it to the committee.
    Mr. Chairman, Ranking Member Murkowski, fellow members of 
the Energy and Natural Resources Committee, I thank you for the 
opportunity this afternoon to introduce an individual for whom 
I have great personal respect, admiration and confidence, David 
Hayes. David is an accomplished lawyer and knowledgeable public 
servant who is exceedingly well qualified to be Deputy 
Secretary of the Department of the Interior. David will bring a 
lifetime of relevant experience and scholarship in 
environmental, energy and natural resources matters to this 
position.
    As Deputy Secretary of the Department of Interior from 1999 
to 2001, David was the second highest ranking official at the 
Department. It was statutory responsibility to serve as Chief 
Operating Officer over Interior's 70,000 employees and $10 
billion annual budget. He was nominated for the position by 
President Clinton and unanimously confirmed by the U.S. Senate.
    As Deputy Secretary, David oversaw all the Department's 
bureaus and offices including the National Park Service, the 
U.S. Fish and Wildlife Service, the Bureau of Reclamation, the 
U.S. Geological Survey, the Bureau of Indian Affairs, the 
Bureau of Land Management and the Minerals Management Service. 
He played a lead role in many of the Department's most 
complicated and important policy matters with a principle focus 
on the acquisition and protection of threatened lands, the 
restoration of vulnerable ecosystems and the introduction of 
modern water management in the West. David has contributed to 
countless books and articles on environmental and energy 
matters.
    He has also served as a Senior Fellow at the World Wildlife 
Fund and as a consulting professor at Stamford University Woods 
Institute on the Environment.
    On a personal note, Mr. Chairman I have known David Hayes 
for nearly 30 years. Before I began my public career David and 
I were young lawyers together at the same law firm. I know him 
to be a devoted husband to his wife, Elizabeth and a loving 
father to his children, Katherine, Stephen and Molly. He is 
also, I'm proud to report an honorary Hoosier having earned his 
undergraduate degree at Notre Dame.
    David enjoys strong support from both Democratic and 
Republican Senators. He is a pragmatic, bipartisan, forward 
thinking individual. David has a proven track record for 
approaching water and land matters in a constructive and 
collaborative manner. We are fortunate to have a nominee who 
has his breadth of experience and can hit the ground running at 
the Department of the Interior.
    Finally I have high confidence that if confirmed David will 
be a strong partner to our friend and former colleague, 
Secretary Salazar. Mr. Chairman based upon 30 years of personal 
experience, I can offer Mr. David Hayes my highest 
recommendation to the committee. I thank you for your courtesy 
in allowing me to present him today.
    The Chairman. Thank you very much, Senator Bayh. We 
appreciate that. Let me just advise all Senators we're nearly 
half way through this vote right now.
    So I think what I'll do is to go ahead and administer the 
oath to Mr. Hayes. Then ask him the questions we're required to 
ask. Then adjourn the committee hearing and go vote and we'll 
come back and hear your statement at that time, if that's 
acceptable.
    The rules of the committee that apply to all nominees 
require that nominees be sworn in connection with their 
testimony. Would you please stand and raise your right hand?
    Do you solemnly swear that the testimony you're about to 
give to the Senate Committee on Energy and Natural Resources 
will be the truth, the whole truth and nothing but the truth.
    Mr. Hayes. I do.
    The Chairman. Please be seated. Before you begin your 
statement let me ask you the three questions that we address to 
each nominee that comes before our committee.
    First is will you be available to appear before this 
committee and other congressional committees to represent 
departmental positions and to respond to issues of concern to 
the Congress?
    Mr. Hayes. I will.
    The Chairman. A second question. Are you aware of any 
personal holdings, investments or interests that could 
constitute a conflict of interest or create the appearance of 
such a conflict should you be confirmed and assume the office 
to which you've been nominated by the President?
    Mr. Hayes. Mr. Chairman, my investments, personal holdings 
and other interests have been reviewed both by myself and the 
appropriate Ethics counselors within the Federal Government. 
I've taken appropriate action to avoid any conflicts of 
interest. There are no conflicts of interest or appearances 
thereof to my knowledge.
    The Chairman. Alright. The third and final question that we 
put to all nominees is are you involved or do you have any 
assets that are held in blind trust?
    Mr. Hayes. I do not.
    The Chairman. Alright. As I indicated before we're in the 
middle of a vote. Why don't we adjourn the hearing at this 
time? Then when we return we will ask you to go ahead with your 
opening statement.
    Mr. Hayes. Thank you, Mr. Chairman.
    [RECESS]
    The Chairman. Ok. Why don't we reconvene the hearing? At 
this point the tradition of the committee is to invite you, Mr. 
Hayes to introduce any family members that are here with you 
and to make your opening statement. So why don't you go right 
ahead.

TESTIMONY OF DAVID J. HAYES, NOMINEE TO BE DEPUTY SECRETARY OF 
                          THE INTERIOR

    Mr. Hayes. Thank you, Mr. Chairman. I am accompanied today 
by my wife, Elizabeth behind me and two of my three children, 
my daughter, Kate and Molly. My son Stephen is in college on 
the West Coast and claims to be studying today so couldn't be 
here.
    The Chairman. We welcome them.
    Mr. Hayes. Thank you. Mr. Chairman I have prepared a 
personal statement that I would appreciate being entered into 
the record.
    The Chairman. We will enter it into the record.
    Mr. Hayes. Thank you. I will just make a few brief comments 
about the personal statement. Tell you a little bit about 
myself and then what I hope to have the opportunity to do 
working with you and Secretary Salazar at the Interior 
Department.
    Just very quickly, biographically I was born and raised in 
Western New York State. My two parents are from small towns 
outside of Rochester. They met in a dance hall on Conesus Lake, 
a beautiful Finger Lake south of Rochester.
    When I was a very small child, my parents bought a log 
cabin on Conesus Lake, complete with outhouse where I spent all 
of my summers growing up. It was that formative experience, 
being in the outdoors, fishing, swimming, being a family, that 
I think started my head in the direction of environment and 
natural resources. As Senator Bayh mentioned I then moved out 
to Indiana for college and enjoyed the Indiana Dunes and Lake 
Michigan and then moved on to California where I went to law 
school and that really opened my eyes as I crossed the country 
back and forth and saw the splendors of the West.
    After law school I committed myself to a career in the 
environmental and natural resources area. As you mentioned, Mr. 
Chairman, I had the honor of serving in the public service at 
the Interior Department for 4 years in the Clinton 
Administration. It's a Department whose mission I love and I 
think it's an incredibly important Department.
    Important because it's important to our economy and it's 
important to our legacy. Our natural resources, our land, our 
water, our wildlife are irreplaceable, need to be appropriately 
used. Certainly, particularly with the lands, we need to be 
thinking about future generations as we go forward in 
implementing the administration of those resources.
    As I mentioned in my personal statement there are several 
matters of particular interest to me that I look forward to 
working with you on as I hopefully am confirmed with your 
blessing to be the Interior Deputy Secretary.
    First of all just as a general matter, I believe firmly in 
the collaborative process that needs to be behind every major 
resource decision. I like this area in part because of the 
problem solving nature of working through resource issues that 
tend to be extraordinarily important to people throughout the 
Nation. In terms of specific issues I'll mention four very 
briefly.
    I share Secretary Salazar's enthusiasm for the potential 
for renewable energy on our public lands. The Interior 
Department, as you know, manages one fifth the land mass of the 
United States. Has enormous potential renewable resources, 
solar, wind and geothermal.
    Also has, I think, the unrealized potential to be a hugely 
productive player in bringing stranded renewable energy to our 
population centers. Going over Federal land should be the first 
thing, not the last opportunity in terms of new transmission. I 
look forward to working with Secretary Salazar on that 
perspective and on that initiative as we proceed as well with 
appropriate oil and gas leasing, coal development and the other 
uses of our public lands that are so important to our domestic 
energy economy.
    Secondly, I'm very interested in the climate change issue, 
particularly with regard to its impacts on our landscapes. The 
Interior Department, as you know, is the largest water 
wholesaler in the West. Water supplies are being affected by 
changes in climate with 20 percent of the land mass of the 
United States under our jurisdiction we are seeing impacts on 
land and wildlife resources.
    This committee in 2007 directed the United States 
Geological Survey to help study the impacts of climate change. 
We're looking forward to moving that agenda forward and helping 
folks at the local, State and Federal level to understand the 
impacts on our resources to climate change and to react to 
them, so that they can adjust to those impacts. With regard to 
climate change also, I think there's a good news story here.
    Our natural landscapes are drinking in carbon dioxide. 
There's a benefit to the wetlands, to the forests, to the 
grasslands and the range lands that are in the public trust. I 
think we need to celebrate that. Make sure the American people 
realize that there are benefits in terms of climate change to 
these resources.
    Thirdly I'll just mention that I share the views of all of 
you on the committee about the importance of continuing to 
invest in our treasured landscapes. Let me say that as I 
mentioned early on. I'm a native of Western New York State.
    As such, while I very much love and appreciate the iconic 
National Parks in the West. I also understand and appreciate 
the importance of our responsibilities in the East, the South, 
the Midwest, throughout the country. I look forward to pursuing 
that agenda and providing opportunities for all Americans to 
understand and appreciate our natural wonders.
    Finally and just as importantly as all the other points, I 
look forward to working with the Native American community. 
When I was at Interior the first time around working with 
Native Americans was one of the most rewarding aspects of the 
job. As I look at you, Senator Bennett, I recall going to 
Window Rock with President Clinton.
    You were there talking about economic opportunity for 
Indian tribes and on the communications front. When I first 
started my first assignment, one of my first assignments for 
Secretary Babbitt was dealing with Indian water rights issues. 
We made some progress but we have much more to do. I will look 
forward to spending a lot of time on Native American issues 
should I be confirmed.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Hayes follows:]
          Prepared Statement of David J. Hayes, Nominee to be 
                    Deputy Secretary of the Interior
    Thank you, Mr. Chairman, Senator Murkowski, and members of the 
Committee. I am honored to be with you today as President Barack 
Obama's nominee as Deputy Secretary of the Department of the Interior. 
I am joined by my wife, Elizabeth, and two of my children--Kate and 
Molly. My son, Stephen, is a college student on the west coast, and he 
unfortunately cannot be here today.
    With your indulgence, I would like to begin with a short, personal 
introduction that helps to explain why I am here today.
    I grew up in western New York State. Both of my parents were from 
small towns in the countryside outside of Rochester, New York. They met 
after World War II at a dance hall on Conesus Lake--one of the Finger 
Lakes in New York State that is south of Rochester. They married and 
raised my three sisters and me in Rochester. But even though they had 
moved to the city to find work, my parents always remained true to 
their small town roots, and their love of the rolling hills and 
beautiful lakes of upstate New York. In the early 1950s, they bought a 
modest log cabin cottage on the same Conesus Lake where they met, and 
where my mom had spent her summers growing up with her family. Thanks 
to the log cabin, my sisters and I were able to repeat the experience. 
We spent all of our summers together on Conesus Lake--swimming, fishing 
and just being a family. My parents have since passed on, but my 
sisters and I still own that same log cabin, and now Liz and our kids 
make a pilgrimage to lake country in western New York every summer to 
repeat the simple joys of being together, in a beautiful place, with 
family and friends.
    After high school, I went to college in the Midwest, in Indiana, 
and then I continued west to California, where I attended law school. 
My cross-country trips to and from California introduced me to the 
wonders of our nation that lay beyond the Finger Lakes, Niagara Falls, 
and the sand dunes on the south shore of Lake Michigan. These formative 
experiences prompted me to dedicate my career to energy, environmental 
and natural resources issues. That pull toward natural and cultural 
resource issues has become my life's work, both in and out of 
government, and through my academic and non-profit work.
    In that regard, and perhaps most pertinently to this Committee, I 
was fortunate enough to have served for four years in the Department of 
the Interior--the last two as Deputy Secretary--in the Clinton 
Administration. I worked with many of you on the Committee during that 
period, and I thoroughly enjoyed the privilege of tackling the many 
important and challenging issues that arise within the vast domain of 
the Interior Department.
    I am extraordinarily grateful that President Obama and Secretary 
Salazar have asked me to serve at the outset of this new Administration 
as the Deputy Secretary--the second highest ranking official in the 
Department and, by statute, its Chief Operating Officer. If confirmed, 
I can assure you that I will take on this challenge with seriousness of 
purpose and total commitment to the task at hand. As you know very 
well, the Interior Department deals with issues that matter greatly. 
The Interior Department makes decisions every day that implicate our 
stewardship responsibilities over the land and water resources of this 
great nation. And all of the issues that the Department touches affect 
our fellow Americans.
    Because of the weighty responsibility associated with managing the 
Interior Department's responsibilities, I approach my prospective 
position with deep humility and a commitment to work collaboratively 
with you, the Department's fine career staff, and with all key 
stakeholders who are affected by the Department's programs. My first 
choice--always--is to look hard for collaboratively-based approaches to 
decision making. I pride myself in solving problems, and in seeking 
solutions that advance the interests of all interested parties.
    In that regard, if confirmed, I am looking forward to working with 
Secretary Salazar and our team, in close collaboration with this 
Committee, to expand the portfolio of energy that is produced from the 
public resources that are under the Interior Department's jurisdiction. 
As the nation's largest landowner, including lands with enormous solar, 
wind and geothermal potential, the Interior Department is in a unique 
position to greatly expand renewable, domestically-produced energy 
production in the United States. In tandem with the Department's 
continued production of oil, gas, coal and other energy sources, 
increased production of renewable energy is a key element of the ``moon 
shot'' on energy independence that the President and Secretary Salazar 
are so committed to taking. Interior Department landholdings also will 
play an indispensible role in expanding the electric grid and bringing 
renewable energy from the sunny southwest and the windy plains to our 
population centers.
    As with all other Interior Department issues, developing renewable 
energy on the public lands will require a balanced approach that 
addresses the impacts of such development on wildlife, water resources 
and other interests. History has taught us that when it comes to our 
public lands, we must proceed with care, for we have a responsibility 
to take a long-term view as we manage these lands for the benefit of 
all Americans, including future generations that will follow.
    In addition to devoting substantial attention to energy issues, I 
expect to give special attention, if confirmed, to the issue of how 
climate change is impacting our water, land, and wildlife resources. 
Given the Interior Department's vast land base, its statutory 
obligations to address wildlife issues, and its responsibilities as the 
largest water wholesaler in the western United States, Interior must be 
at the forefront of our efforts to understand how climate change is 
affecting our resources, and to anticipate and react to these impacts. 
With the substantial scientific capabilities of the United States 
Geological Survey, the Fish & Wildlife Service and the National Park 
Service, Interior is well-positioned to lead this vitally important 
work, and to do so in partnership with state and local land and water 
managers, and ordinary citizens, who are concerned about the effects 
that climate change are having on their resources. In that regard, I 
hope that the Interior Department can also bring good news to Americans 
on the climate change front. Our forests, rangelands and open spaces 
are providing climate change benefits--day in and day out--as they 
absorb carbon dioxide from the atmosphere. We need to tell this story, 
and help Americans understand how their support for parks, wildlife 
habitat, wetlands, and other natural landscapes is helping to address 
our climate change challenge by removing excess heat-trapping gases 
from the atmosphere.
    I also look forward to working with you, if I am confirmed, as we 
invest in the many national treasures that the National Park Service, 
the Bureau of Land Management, and the Fish & Wildlife Service oversee. 
While I share the affinity that all Americans have for our magnificent 
and iconic national parks in the west, I am an equally strong supporter 
of the parks, monuments and refuges in the east, midwest, and south, 
and the many historical sites that are under our trust--from 
Constitutional Hall and the Liberty Bell to our Civil War battlefields. 
And I am a firm believer that we must give more attention to our urban 
parks and to the lakes and rivers that run through our cities and 
countryside and that so many people enjoy. I believe that we should be 
mindful of our responsibility to provide opportunities for all 
Americans to enjoy God's bounty that surround us--regardless of where 
we live.
    Finally, if I am fortunate enough to receive your endorsement, I 
look forward to working closely with Native Americans who look first to 
the Interior Department to work with them on a government-to-government 
basis. We must honor our trust obligation to the tribes. This is an 
obligation, and a challenge, that I accept without hesitation. During 
my first tour of duty at the Interior Department, I worked closely with 
many tribes on a broad range of issues, and I look forward to 
continuing that work in the months and years ahead.
    Thank you for your attention, and I look forward to responding to 
your questions.

    The Chairman. Thank you very much for your statement. 
Senator Murkowski mentioned in her opening statement there have 
been questions raised about contacts that you may have had with 
Interior Department officials during the first year of the Bush 
Administration when you, under the statute then and now were 
barred from lobbying anyone in the Department on behalf of a 
client. You've already provided a written response to those 
questions which we will make part of the record.
    But let me ask for the benefit of the committee, three 
questions and get your response.
    Number one, did you have any contact with any officer or 
employee of the Department of Interior in connection with any 
matter on which you were seeking official action on behalf of 
another person within 1 year after you left the Department in 
January 2001?
    Mr. Hayes. I did not.
    The Chairman. Let me ask a second question, more 
specifically, did you during any of your contacts with Deputy 
Secretary Griles or Assistant Secretary Scarlett within 1 year 
after you left the Department seek official action from either 
of them on any matter on behalf of another person?
    Mr. Hayes. No, sir. I did not.
    The Chairman. let me ask one final question. President 
Obama has issued an Executive Order on Ethics that prohibits 
the appointment of a registered lobbyist to any executive 
agency that he or she lobbied within 2 years before the 
appointment. Have you lobbied the Department of Interior at any 
time during the past 2 years?
    Mr. Hayes. I have not, Mr. Chairman.
    The Chairman. Let me defer to Senator Murkowski for her 
questions.
    Senator Murkowski. Thank you, Mr. Chairman. Mr. Hayes, in 
the past month Secretary Salazar has delayed the 5-year plan 
for off shore leasing. He's withdrawn more than 130,000 acres 
from oil and gas exploration in Utah and he's canceled the next 
round of oil shale leasing.
    Now I don't dispute that the officials at the Interior have 
the right to review the previous Administration's actions, but 
all of these actions will slow down rather than speed up 
domestic energy production. Can you tell me what the plans are 
at Interior to increase the amount of oil and gas that is 
produced here in this country?
    Mr. Hayes. Certainly, Senator. I should first make clear of 
course that I'm at the Department now only in a senior advisor 
capacity. I am not a decisionmaker in the Department. Have not 
made any of the decisions to which you are referencing. I've 
been very careful about that because I know how important 
prerogative is at the Senate in terms of my position.
    I can say though that I know that Secretary Salazar on the 
offshore drilling issue was concerned about the very short time 
period there was to evaluate the potential opening up of very, 
very large area of the offshore for potential oil and gas 
development. He wants to have a full and complete discussion 
about the possibility of increasing oil and gas production in 
areas that have been subject to the moratorium. That was the 
purpose of extending what was a 60 day comment period that 
would be actually over within a week or so of now to a 6-month 
period.
    What he did is asked the USGS and the Minerals Management 
Service to, on an expedited basis, come up with a report which 
is due at the end of this month to help lay out what 
information we have in terms of oil and gas resources for all 
these areas. Then he has scheduled a series of four meetings, 
one on the East Coast, one on the Gulf Coast, one in California 
and one in Anchorage, Alaska to take in public comment on the 
very important question of whether these areas that have not 
been open to oil and gas leasing should be in fact open.
    So that's my response on that point, Senator.
    Senator Murkowski. Yes, but in terms of oil increased 
production here in this country obviously I would agree with 
you. We need to assess and understand what we have on the OCS. 
I would hope that you would advise Secretary Salazar and 
President Obama with regards to that.
    As you know, we lifted the moratoria. I don't know whether 
you intend to suggest that that moratoria be re-imposed or how 
you feel about the direction that we should be taking with 
offshore, but I'd like you to address that a little bit 
further.
    There are more to our domestic----
    Mr. Hayes. Yes.
    Senator Murkowski [continuing]. Resources than just the 
offshore resources.
    Mr. Hayes. That's exactly right. The Secretary, I know that 
Secretary Salazar is committed to continuing with bigger 
responsible oil and gas drilling throughout the United States. 
The Utah lease situation, I think, was an unusual one because 
when we came into office, the issue was on the plate. There 
were questions about whether there was adequate consultation 
with the National Park service.
    The Secretary--I did not take those leases off the table 
for all time. He took the leases that had been questioned and 
said we just need more time to evaluate them. But the Secretary 
intends to move forward with many, many scheduled oil and gas 
leases and is very committed to continuing to take full 
advantage of our domestic oil and gas resources.
    Senator Murkowski. We're giving the Administration another 
opportunity to revisit ANWR. During the Clinton Administration, 
and in various writings after you left your post at the 
Interior, you opposed development of the 10 02 area. But it 
appears that most of your arguments really center on the impact 
that surface development could have on the ecosystem of the 
refuge.
    So what we've done is we've said ok--we're not crazy. We're 
not going to run the same idea that has been rejected by those 
who have opposed it.
    Let's go underneath. Let's use the technology that allows 
us to drill directionally under the surface with no surface 
occupancy. Can you tell me whether or not you would encourage 
the Administration to look carefully at the opportunities that 
present themselves in ANWR with the advancements that we have 
in technology now?
    Mr. Hayes. Senator, I look forward to learning more about 
the technologies and will be happy to do so. I expect that the 
ultimate decision will be Secretary Salazar's and the 
President's on this issue. But I'm certainly looking forward 
and open to learning more about the new technologies that 
you're mentioning.
    Senator Murkowski. We'll bring you up and show you what 
they're doing at Liberty. It's about eight miles of directional 
drilling under the surface.
    Mr. Hayes. I look forward to doing that, Senator. I would 
like to go see it.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Hayes. I would like to echo 
the earlier comments from other members of the committee about 
your willingness to come back and serve in government. I think 
that's admirable and we appreciate that.
    Also want to point out that my youngest daughter is named 
Molly.
    [Laughter.]
    Senator Shaheen. So I especially appreciate Molly being 
here today.
    You talked a little bit about the importance of recognizing 
the grass lands and the forests and our public lands as an 
opportunity to store carbon which we very much appreciate in 
New Hampshire as the second most heavily forested State in the 
country. But how do you see the balance of protecting those 
resources along with thinking about using our public lands for 
renewable energy sources? How do you determine the balance?
    Mr. Hayes. That's a good question, Senator. It's hard to 
answer in the abstract, I think. But I personally believe based 
on some experience from the last go round, that where there's a 
will, there's often a way.
    Much like we have developed oil and gas resources 
increasingly in an environmentally sensitive manner, I think 
that we could do the same in terms of solar and wind. There 
clearly are--and geothermal. There clearly are environmental 
impacts associated with any type of energy production.
    But we have tools available. We can consider things like 
land exchanges, like, you know, habitat conservation plans, 
other approaches to deal with the conservation impacts of some 
of these projects. I think we have to if we're going to change 
our economy and make real progress in this area.
    Senator Shaheen. Thank you. On another topic you will be 
overseeing the Minerals Management Service. Can you talk a 
little bit about some of the things that you think need to be 
done to address the inappropriate activities that have been 
engaged in by that agency in the past?
    Mr. Hayes. Yes, Senator. As you know this has been a top 
priority for Secretary Salazar. Very early on he went out to 
Lakewood and visited with the MMS staff. In a nutshell, I think 
has, you know, expressed grave concern.
    While recognizing that the, by far, the vast majority of 
MMS employees are good, upstanding citizens. There were clearly 
very inappropriate activities. He has asked for a special 
review of all of that and is emphasizing the importance of 
ensuring that this department is ethical from top to bottom. We 
are reminded of that every day in the Department.
    Senator Shaheen. Is there a time period when you expect 
that review to be completed?
    Mr. Hayes. It's an ongoing review. I will look into that 
and see if we can get you some more definitive information, 
Senator. But it's an ongoing thing that we're constantly 
concerned about.
    We also, I should say on a policy level we look forward to 
working with your committee on the question of royalty 
collection and reform potentially to make sure that the process 
is such that it's more transparent, fair and you don't have the 
environment that creates the potential for these kinds of 
ethical issues. So we'll look forward to working with your 
committee on that angle.
    Senator Shaheen. Good. Thank you.
    The Chairman. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. I understand that 
you were a registered lobbyist?
    Mr. Hayes. Yes, I was, Senator.
    Senator McCain. For how long?
    Mr. Hayes. I think I was a registered lobbyist for four or 
five entities beginning in 2001 and ending in 2006.
    Senator McCain. The firm that you worked for did pretty 
well. In 2003 they got a million and $730,000. In 2004 they got 
almost $2 million in lobbying fees. 2002 they got $1.38 million 
in lobbying fees. They did pretty well Latham and Watkins 
lobbying here in Washington. I mean that's the information we 
have.
    Mr. Hayes. Right. Senator, the Latham and Watkins actually 
it's true. Though it's certainly true it's a very, very large 
law firm of over 2,000 lawyers.
    Senator McCain. How many lobbyists?
    Mr. Hayes. I don't know.
    Senator McCain. The point is you were a registered lobbyist 
for a number of years.
    Mr. Hayes. Yes, sir.
    Senator McCain. How does this coincide with President, then 
candidate Senator Obama saying that there would not be 
lobbyists in his Administration? Do you know?
    Mr. Hayes. Senator, I know that he requested that no one be 
a registered lobbyist within 2 years and I'm not.
    Senator McCain. I see. Would you like to tell the committee 
who you'd lobbied for on behalf of who you lobbied?
    Mr. Hayes. Certainly, sir. That information is available on 
the committee questionnaire that has been provided to the 
committee. Would you like me to go through that?
    Senator McCain. No, that's alright. We'll look at it.
    Mr. Hayes, in April 2006 on behalf of the Progressive 
Policy Institute that I believe you were part of you wrote and 
I quote.
    ``The conservative political agenda in the West is grounded 
in hoary stereotypes about the region and its people. In their 
world view the West natural resources are inexhaustible. 
Exploiting them will produce a bonanza of dollars and jobs, 
(never mind the West's sad history of boom and bust cycles,) 
and Federal bureaucrats with title to the land the only thing 
blocking that utopian vision from becoming reality. Out of this 
conservative world view emerges a stereotypical western man 
(and it is unquestionably a he) a drugged gun toting 
individualist who fiercely regards every man's right to drill, 
mine, log or do whatever he damn well pleases on the land. He 
hates government, taxes, regulations, environmentalists and 
anyone or anything else that tries to tell him what to do 
provided of course, that Federal subsidies from mining, 
logging, grazing and the like continue unabated. Like Ronald 
Reagan before him President Bush has embraced the Western 
stereotype to the point of adopting some of its affectations, 
the boots, brush clearing and get the government off our backs 
proviso.''
    You know, a lot of us don't feel that way about President 
Reagan. A lot of us feel that President Reagan did a lot for 
our environment. A lot of us honor his service to this country, 
not only as President of the United States, but Governor of the 
great State of California where there were many environmental 
accomplishments which I would be glad to provide you since 
clearly you didn't know in April 2006 or you never would have 
made such a comment about President Reagan.
    Do you stand by those remarks? What you wrote in April 
2006?
    Mr. Hayes. I think the prose is overly florid, Senator. I 
regret that. I did feel at the time that the Bush 
Administration was not as balanced as they should be in natural 
resources policy.
    Senator McCain. So you had to throw Reagan's name in there 
too about brush clearing?
    Mr. Hayes. I shouldn't have done that, Senator.
    Senator McCain. You know, I find it highly offensive but 
you're certainly entitled to your views. I just don't know if 
that helps in any way the efforts that many of us made for a 
long, long time trying to protect the great natural treasures 
that we have. I'm very proud of my record and I'm very proud of 
Democrats as well as Republicans.
    I guarantee you I would never have said anything like that 
about former Governor and Secretary of the Interior Bruce 
Babbitt. In fact, I've done nothing but praise him. So later in 
your article you state that today for instance, we're all 
grateful that the Marble Canyon and Bridge Canyon dams were 
never built in the middle of the Grand Canyon, etcetera. Do you 
think that the Glen Canyon dam should have been built, Mr. 
Hayes?
    Mr. Hayes. I think the Glen Canyon dam is providing 
terrifically important resources to the Southwest as you know. 
As I understand it--and you certainly know this history far 
better than I do--I think a broad consensus developed that 
those two additional dam sites were not appropriate.
    Senator McCain. I thank you for your answers. I will be 
considering seriously whether I can support your nomination or 
not. Thank you, Mr. Chairman.
    Mr. Hayes. Thank you, Senator.
    The Chairman. Senator Udall.
    Senator Udall. Thank you, Chairman Bingaman. Good 
afternoon, Mr. Hayes. Let me start with oil shale if I might.
    You know there's been a lot of concern expressed about the 
potential of element oil shale in the West as well as the 
recently released oil shale regulations. Do you have any 
comments on how you view the development of this potential 
energy resource?
    Mr. Hayes. Senator, I know that Secretary Salazar is 
interested in the information that will come out of the RD and 
D leases that already were granted by the Department and is 
seriously interested in moving forward with a second round of 
RD and D leases. I think as he testified before this committee 
he is interested in learning more about issues like potential 
water impacts, etcetera. But absolutely has an open mind about 
it.
    Senator Udall. I think there are many of us in the West who 
are and certainly all over the country who are intrigued with 
the oil shale potential. But also know that there are 
significantly unanswered questions about the amount of water 
that's necessary. About the energy inputs that will be 
necessary and what sorts of reclamation policies may be 
necessary, particularly in wide scale oil shale development, 
would involve stripping off the over burden. We're talking 
literally thousands and thousands of square miles. So I look 
forward to working with you, if you're confirmed and of course 
Secretary Salazar.
    Let me turn to renewable energy certainly it's a large 
interest of mine. It's a large interest of many of us in the 
Southwest. Could you comment on the role that you foresee that 
the Department of Interior will have in expanding and promoting 
renewable energy? Not just in the West, I don't want to be too 
Rocky Mountain West centric here, but all over the country?
    Mr. Hayes. Senator, I know that Secretary Salazar, 
consistent with President Obama's emphasis on taking full 
advantage of our domestic energy resources is very committed to 
having the Interior Department be a leader here. Being an 
observer, as an advisor, at this point I am seeing that happen. 
As he, just yesterday issued an order forming a task force that 
will be focused on this and that will make renewable energy a 
priority for the Department.
    Senator Udall. Let me follow up and talk about 
transmission. We had an important hearing this morning. In fact 
it lasted all morning and I think into the afternoon.
    We've got to balance out the needs of the country with the 
needs and points of views of local and regional interests. What 
is the plan the Department of Interior has to address those 
challenges dealing with transmission expansion and transmission 
capacity and in effect creating a 21st century interstate 
highway system of transmission?
    Mr. Hayes. Senator, as Secretary Salazar met just last 
night with Secretary Chu, with the Acting Chair of the Federal 
Energy Regulatory Commission and with Secretary Vilsack to talk 
about this specific issue, the potential formation of a cross 
agency effort to work together on transmission.
    Senator Udall. I think we heard about a transmission line 
from Montana to Utah I believe earlier today. That proposed 
line only 17 miles and over 1,000 mile transmission system were 
on private land. So the public estate will play a key role in 
expanding our transmission capabilities, our transmission 
system.
    But let me turn to coal. We have vast resources of coal. We 
also, I think, know as a country that we have to reduce our 
carbon footprint. There's much to do with carbon capture and 
sequestration technology. Please comment on what Department of 
Interior's role will be in promoting that technology 
understanding the geological limitations and opportunities as 
well.
    Mr. Hayes. Senator, the Department of Interior, I believe 
can be very helpful potentially in carbon capture and storage. 
In the 2007 Energy Independence Act coming out of this 
committee, there was a request for the U.S. Geological Survey 
to prepare methodology to help evaluate the appropriate sites 
for carbon capture and storage. That report is near finished.
    My understanding is that it will be ready for release very 
soon. So it's been a priority for the USGS to help in that 
regard. I know that the Secretary Salazar is interested in 
potentially offering Federal sites for experimental carbon 
capture and storage to help move along the technology.
    Senator Udall. Mr. Chairman, I see my time is expired. If 
we have another round I have some additional questions.
    The Chairman. Ok.
    Senator Udall. Otherwise I'd like to submit some for the 
record.
    The Chairman. Alright.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman. Mr. 
Hayes, thank you for coming by the office yesterday. 
Congratulations. I want to welcome your wife and daughters 
here. It's a family commitment to do this sort of work. Then I 
appreciate their efforts to be with you.
    Senator McCain talked about Ronald Reagan. Ronald Reagan 
came to Cheyenne, Wyoming in the early 1980s and drew a big 
crowd, overflowing capacity in a gymnasium. He pointed out the 
thing he loved about Wyoming and the Rocky Mountain West. He 
said that the people here still believe that the future is ours 
to shape. He said ours, because he was one of us.
    Yesterday you and I discussed some of the natural resource 
issues that are very important to the people of Wyoming. We 
agree that this country needs to abandon the ideological 
battles of years past. We have to focus on the people, the 
land, the communities that are affected by these policies.
    I told you about my concern that there were mistakes in the 
past, and the people of Wyoming have been forced to pay the 
price for many of those mistakes. What seemed to be simple 
decisions made in Washington have dramatic effects back home in 
Wyoming.
    We've seen it with wolves, grazing permits, energy 
development, lawsuits and with much, much more. So what I need 
from you is a commitment to abandon the restrictive attitudes 
of the past. You and I talked about not repeating failed 
policies and really charting a new course in a number of areas.
    So with that I'd like to talk about the issue of wolves 
which we talked about yesterday. This is a big issue in 
Wyoming. Secretary Babbitt, who you served under, reintroduced 
gray wolves into the Wyoming landscape. The decision was really 
made with disregard, I felt, to the people who live there.
    It's where we raise our families, where we build our 
businesses. I think people felt that the Federal Government 
really treated us like it was some kind of a Petri dish for an 
environmental experiment. When we started they were required 
that there be 30 packs of wolves in the Yellowstone area. Since 
then, the number has just multiplied and multiplied. They're in 
Montana, in Wyoming, in Idaho and States beyond.
    Yet the Fish and Wildlife Service refuses to delist the 
wolf in Wyoming. The Clinton Administration created the 
problem. The Bush Administration failed to solve it. Now the 
Obama Administration has refused to deal with it.
    Will you commit to me today that you will take a fresh look 
at gray wolf management in Wyoming? Will you work with our 
State to find a solution to the problem?
    Mr. Hayes. Senator, I will. As I said to you yesterday, 
very interested in working with you and your State. I think 
Interior Department, if I'm confirmed, and if I can play a 
role, would like nothing better than to delist the wolf in 
Wyoming as well. I would like to work with you toward that end.
    Senator Barrasso. Another issue that we talked about was 
abandoned land mine money. As you know, there is a tax charged 
on every ton of coal produced in the State of Wyoming. That tax 
was established with the understanding that the money would go 
back to the States where it came from to clean up the abandoned 
mines. But also to take care of the communities where there's 
been an impact. There has been an impact.
    When President Obama was a member of the Senate he actually 
supported the bill that promised Wyoming its fair share of the 
AML funding. Senator Salazar supported the bill that promised 
Wyoming its fair share of AML funding. It applied to his State 
as well in Colorado.
    The money rightfully belongs to the States. Unfortunately 
the new budget that came out, the President's budget, proposes 
terminating the payments to the States that are called 
certified States. This proposal truly contradicts the position 
that both President Obama and Secretary Salazar voted for just 
3 years ago here in the Senate. Plus it short-changes the 
people of Wyoming and Wyoming communities by millions and 
millions of dollars.
    Do you believe that the people of Wyoming are entitled to 
their share of the payments to the abandoned mine land fund as 
required by law? If appointed how will you address this issue?
    Mr. Hayes. Senator, as we discussed yesterday I am not up 
to speed on this issue. I will look forward to doing so. The 
message is loud and clear about your concern about this. Of 
course I was not a decisionmaker on this point.
    I look forward to working with you as we move forward on 
this very important issue.
    Senator Barrasso. My time is expired but Mr. Chairman I can 
go with one more question if you'd like. I wanted to move to 
the topic of grazing. Do you believe that grazing should 
continue on public lands or will you advocate reductions in 
grazing on public lands?
    Mr. Hayes. I think grazing should continue on public lands 
as a general matter, Senator.
    Senator Barrasso. Will you advocate for a reduction in the 
grazing on public lands?
    Mr. Hayes. I have no personal reason to advocate for a 
reduction. I think that obviously that grazing, the 
appropriateness of grazing and the intensity of the grazing 
differs from area to area. These issues primarily should be 
dealt with on the local level.
    Senator Barrasso. Because the Department of Interior took 
an aggressive position on grazing during the Clinton 
Administration. There were changes made to grazing regulations 
in the mid 1990s. It's been a great concern to the people of 
Wyoming.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman. Mr. 
Hayes, welcome.
    Mr. Hayes. Thank you, Senator.
    Senator Bennett. I've made some notes of what you have been 
saying. You say you're for appropriate oil and gas development 
on public lands. I like that.
    You want a full and complete discussion. I like that. That 
this should be done in an increasingly environmentally 
sensitive way and I like that.
    You've been around Washington long enough to know that when 
I start out like that I'm setting you up.
    [Laughter.]
    Senator Bennett. Secretary Salazar, one of the very first 
things he did, if not his first official act was to reject the 
bids of 77 parcels of BLM land that had been offered for lease. 
Senator Murkowski has already referred to these. He said the 
Bush Administration had done this in the dead of night. That 
the environmental impacts to the National Park units had not 
been studied.
    That is flat not true. They comply with everything you have 
just said that it is appropriate oil and gas. It's done with 
full and complete discussion.
    These leases have been in the process of preparation and 
review for years, not months, not in the dead of night, for 
years. The reason they have taken years is because they were 
examined in an increasingly environmentally sensitive way. 
Indeed Mike Snyder, the Regional Director of the National Park 
Service, quoting him has said of this lease sale when it 
occurred, ``Has resulted in the kind of resource protection 
that Americans want and deserve for their National Parks.''
    The reason it was so late in the Bush Administration is 
that it took so long to jump through all of the environmental 
hoops to make sure every ``I'' was dotted. Every ``T'' was 
crossed. Every aspect of the law was complied with. They were 
sure.
    We finally have oil leases that comply in every possible 
way. We've taken the time to do it right. Then they're told 
they're pulled. They're pulled by the fiat of the Secretary. 
The Secretary further insults everyone in the Department and 
out by saying, you know, it was done in the dead of night and 
ignoring the years that went into that.
    I know you're not there yet. I know you had nothing to do 
with this decision to pull these leases. But the only chance I 
get at you is this one to make it very clear that what the 
Interior Department here has done is not in coordination with 
what you've told this committee is an appropriate way to 
proceed.
    I agree with what you've told this committee. I would, at 
the very least, hope that we would go back and look at this 
very, very carefully because if it stands that these leases 
stay pulled we are sending a message that this Administration 
doesn't really care how carefully you comply with the law, how 
carefully you approach this from an environmentally sensitive 
way. They simply want to kill oil and gas leases, period. They 
will make up whatever excuse they can.
    Now that's harsh language. But it complies with the facts. 
Now quickly in the time remaining we've heard rumblings in Utah 
that the Interior Department will begin to make changes in the 
RMPs for land use that were finished in Utah last year.
    The same thing I've just said about the oil leases applies 
to these RMPs. They've been carefully, carefully put together. 
They represent thorough extensive public input, millions of 
dollars and nearly a decade to complete.
    If the Interior Department now says, well we're going to 
toss them all out and start over again. Once again they're 
sending the message that this Interior Department doesn't 
really care about the law or the precedent. They simply want to 
pursue some other agenda.
    Now that's my rant. I'd be happy to hear you respond in 
whatever fashion you might like.
    Mr. Hayes. Senator, I appreciate hearing the rant in all 
seriousness. It's important that we have a good dialog on these 
issues. If confirmed I will be happy to work with you on this 
subject.
    The issue of balance and sound appropriate oil and gas 
production is very important to Secretary Salazar. I regret 
we're off on this foot with you. I know Secretary Salazar does 
as well. We'll look forward to working with you going forward 
so that we can address these issues as we move forward.
    Senator Bennett. I would hope so. Senator Murkowski has 
raised them most appropriately even though it's not from her 
State because the precedent really is quite chilling. If they 
had been sloppily put together we'd have a different reaction. 
But the amount of effort and money that has gone into this, not 
only the oil and gas leases, but the RMPs as well is something 
we take very seriously.
    So I look forward to working with you on it. Thank you.
    Mr. Hayes. Thank you, Senator.
    The Chairman. We'll see what additional questions members 
have in a second round. I do not have any questions. Senator 
Murkowski?
    Senator Murkowski. Thank you, Mr. Chairman. I want to bring 
up the issue of the polar bear listing. As you know very 
controversial in my State, the Alaska delegation certainly did 
not support Secretary Kempthorne's decision last year to list 
the polar bear as threatened.
    But what he did do in that ESA designation. He provided for 
a 4D provision to lessen the threat to subsistence, hunting and 
on oil and gas development. So fast forward to today or at 
least last week with the Omnibus provision.
    In that Omnibus budget bill this Administration was given 
the ability to remove those provisions without any new public 
comment, period. So no process in other words. I believe very, 
very strongly that this was a process mistake as well as a 
policy mistake.
    I think making the polar bear listing unlimited in scope 
when in terms of the scientific evidence that is out there. 
Part of the hearing record on oil and gas exploration and 
production, yeah. I think we recognize that there's not a nexus 
there.
    I disagreed with the Kempthorne decision but at least there 
was a process in place for it. We were not successful in 
ensuring that process will be in place moving forward. Now 
without this 4D protection that was inserted by the Secretary, 
you've got a situation where you're just ripe for litigation 
with any development project that may come forward, anything 
that might produce carbon emissions.
    Quite honestly we don't have the personnel at United States 
Fish and Wildlife to do the Section seven consultations on 
every action that could present itself out there. What will 
Interior do in so far as the consultation requests moving 
forward on this issue?
    Mr. Hayes. Senator, I know that you've mentioned this to 
Secretary Salazar. If confirmed I will be engaged in 
discussions with him at the Department on this point. I think 
your primary point about ensuring that any project that emits 
greenhouse gases does not trigger a consultation because of 
some extended theory impact on polar bears is a very good one.
    The Endangered Species Act is not well suited to deal with 
climate change which is a global phenomenon that has built up 
over decades. I know that the Secretary wants to have a common 
sense approach to implementing the Endangered Species Act. 
We'll look forward to working with you toward that end if I'm 
confirmed.
    Senator Murkowski. I'm glad to hear you say that you agree 
that the ESA is not the tool with which we should work to 
reduce carbon emissions. But there are those who have made it 
very clear, the Center for Biological Diversity is one who has 
made it very clear in their statements that they specifically 
intend to use it to do so. So you're setting yourself up for a 
conflict.
    I think you appreciate this. I think Secretary Salazar does 
as well that despite the best intentions the way it can play 
out is that it will be used. We will find ourselves in a series 
of lengthy and protracted and expensive litigation with, you 
know, pick your project, road development in Florida. It 
doesn't necessarily have to be oil and gas development on the 
North Slope.
    So this is something that we remain very, very concerned 
about. I still don't think that I understand what it is that 
the Administration intends to do insofar as the consultation 
and how that will work. But I think we're going to get slammed 
on this. I'm very, very concerned about it.
    We need to figure out a path forward. Thank you, Mr. 
Chairman.
    Mr. Hayes. Thank you, Senator.
    The Chairman. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. Mr. Hayes, let me 
turn to wilderness. We've come to understand over time that 
wilderness, not only has value as a place in which to recreate 
and recreate and to connect with the wonderful lands, not only 
in the West, but all over our country. But it's also a real 
economic driver, increasingly, particularly in the West, State 
of Alaska.
    We have a lot of potential in our Bureau of Land Management 
lands. There are a lot of proposals for wilderness 
designations. I know you shared an interest in common sense 
based wilderness designations.
    Do you have any initial thoughts on how you might go about 
considering recommendations on our BLM lands for additional 
wilderness protection?
    Mr. Hayes. Senator, I do not. But I look forward to talking 
with you and others about this process. Obviously the 
designation process is a Congressional prerogative in terms of 
wilderness.
    So the job of the Administration I think is to work with 
you to move forward and help decide what areas might be 
appropriately designated as wilderness. We'll look forward to 
doing that.
    Senator Udall. I would add that Senator Salazar has a 
record, as I think I do of working from the bottom up with 
local stakeholder groups that represent all the various 
economic interests in places like Colorado. We've had some 
successes in Colorado.
    Mr. Hayes. Right.
    Senator Udall. Hopefully the Public Lands bill that's 
pending in the House which may be coming back to the Senate 
will pass. I know there are important success stories in there 
for all of us here in the Senate. If you'd care to comment?
    Mr. Hayes. We hope so also. Wilderness should not be a 
wedge issue. It should be a consensus based issue. The 
tremendous advances in S. 22 in that regard in your State of 
Colorado, for example are testament to that I think.
    Senator Udall. Let me move to mining law reform. I know my 
friend and colleague from the neighboring State of Wyoming, 
Senator Barrasso talked about the Abandoned Mine Land Fund. I 
know Senator Salazar was a leader here on implementing such 
reform.
    In the House of Representatives I was keen to put in place 
a Good Samaritan law which would help people in local 
communities have the tools and the protection from liability to 
clean up these thousands of abandoned mine sites. The jobs that 
can be created, water quality can be enhanced and if we would 
provide the direction and the protection. It's not a question, 
just as a comment that I look forward to working with you and 
Senator Barrasso as well as we move forward.
    I thought on my remaining time I'd try and get two 
questions. No. 1, I wanted to ask you about the Centennial 
Challenge. Give you a chance to tell us about your thinking 
there. If talked about that earlier I'd still like to hear 
about here now.
    Then I want to respond to Senator Bennett's concerns about 
the Utah leases before I complete my questioning.
    Mr. Hayes. Senator, on the Centennial Challenge I know that 
Secretary Salazar, of course was a supporter of that with many 
of you on this committee. Is committed to taking advantage of 
the anniversary of the parks to help develop and enhance the 
public/private partnership that should be supporting the parks. 
It's going to be one of his top priorities. We'll look forward 
to working with all of you on that.
    I know that the Secretary is excited about the Ken Burns 
film series that's coming out this fall in the National Parks. 
I think there's going to be a very exciting opportunity to 
remind all Americans about the treasures of our parks. So 
hopefully we can do something great together.
    Senator Udall. I understand in the Economic Recovery 
Package there are some resources there to invest in our 
National Parks. Is that right?
    Mr. Hayes. That's right, Senator. Thank all of you for the 
Recovery Act in that regard. It's $750 million for to deal with 
what has been as you well know a chronic backlog problem in the 
parks.
    Also, you know, very significant expenditures for our BLM 
lands, for our National Wildlife Refuges. All our public lands, 
we have an opportunity to not only provide jobs because these 
are projects that directly will generate jobs in the very short 
term in construction trades and other trades, road building, 
etcetera. We're very excited about moving out quickly and hope 
that that will also help provide a reminder of the importance 
of the parks. Frankly get folks reacquainted again with the 
parks.
    Senator Udall. If I might, Mr. Chairman, I just would like 
to end with a comment. I respectfully disagree with Senator 
Bennett when he talked at some length about the process you 
followed to set aside those leases in Utah. The Bush 
Administration, it's well documented, granted thousands and 
thousands of oil and gas leases.
    The Bush Administration clearly accelerated some of that 
lease activity toward the end of its tenure as Administrations 
are want to do. There's a particular block of leases that were 
issued for, in a draft form, for the area around Arches 
National Park which is a unique and wonderful park of our 
National Park portfolio. These are very sensitive lands. There 
were ground water considerations.
    I supported that decision. I believe that we can return to 
the question of how and when we develop those particular leases 
in those particular lands. But the oil and gas isn't going 
anywhere. It will still be there. It will only get more 
valuable. But in this case, I believe the resource provided by 
the National Park is worth protecting and erring on the side 
that the Secretary erred upon. I just wanted to make that clear 
for the record.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman. You 
just mentioned wilderness and it's a consensus based issue. I 
wanted to now switch a little bit to the Antiquities Act 
because you know as a second ranking official under then 
Secretary Bruce Babbitt, you witnessed the creation of more 
national monuments than during any Presidential administration 
in history.
    These designations met with much controversy, lots of anger 
in the West because of the size and the lack of consultation 
with the States and communities. The consequences of these 
designations for private land owners for grazing permitting and 
for other users within the designated areas really has proven 
to be excruciating. Do you agree with the methodology of those 
widespread Presidential designations? Should the designations 
of these protected places really be reviewed by Congress to 
reflect public input, stakeholder commitment?
    Mr. Hayes. Senator, of course Congress has plenary 
authority here. Can overturn an Antiquities Act designation by 
a President. Should if the Congress believes it should.
    To your point though, I agree that Antiquities Act 
designations should occur after there has been good discussion 
with all stakeholders. I'll mention that Congressman Mike 
Simpson from Idaho was over at the Department recently and 
talking about the Craters of the Moon National Monument which 
was created at the end of the Administration with a lot of 
collaboration, with a Congressional delegation and others. 
That's the way it should be done.
    Senator Barrasso. Senator Craig Thomas who had this seat 
before I did used to say if it's a good idea it's going to be a 
good idea after the public gets a good look at it and Congress 
gets a chance to weigh its merits and its costs.
    You wrote a 2006 paper for the Progressive Policy Institute 
an arm of the Democratic Leadership Council. You had advised 
progressives that they need to, ``Respect the live and let live 
ethic that courses through the blood of long time Westerners 
and newcomers alike.'' But then you wrote in the Virginia 
Environmental Law Journal that Interior Secretary Babbitt was 
not, ``shy in recommending that President Clinton use his 
authority under the Antiquities Act to protect some of our most 
special and treasured public lands.''
    You praised the Clinton Administration for ``using the 
thread of potential action under the Antiquities Act to 
encourage Congressional conservation legislation.'' The people 
in Wyoming, you know, really don't see this kind of political 
gamesmanship as respectful of that live and let live value that 
you talked about in the 2006 paper. So if appointed do you 
intend to use some of these political games to reach 
ideological goals or can we count on you to, as you and I 
talked about yesterday, charting a new course.
    Mr. Hayes. Very much so the latter, Senator. Let me say I 
appreciate your quoting from elsewhere in my article. I think 
the body of my written work shows that I'm a believer in 
collaboration.
    I think that these resource issues are solved when there is 
local input, all stakeholders are heard and sensible win/win 
decisions are reached. That's my philosophy. That's the 
philosophy I will follow if I am confirmed.
    Senator Barrasso. My final question, Mr. Chairman. You 
talked about some of the more heartwarming experiences in your 
time is working with the Native Americans, with our tribes. 
Indian economic development is a big issue in Wyoming.
    The Wind River Indian Reservation in Wyoming is the home of 
the Eastern Shoshone and the Northern Arapahoe tribes. That 
community and many others in Indian country have a great need 
for economic development yet the bureaucratic red tape often 
stands in the way of this economic development. Will you commit 
to focus significant resources and priorities of the Department 
on removing some burdensome, duplicative and overly restrictive 
Federal regulations that impede Indian community's economic 
development? We're talking about energy development and others.
    Mr. Hayes. Absolutely, Senator. This has been an issue that 
you have raised. Senator Dorgan has raised it as well. In fact 
we are already moving out and doing experimental one stop shop 
in Indian country for energy development.
    We need to do this because there's a terrific economic 
opportunity in the energy area in particular for tribes. We 
want to help facilitate that.
    Senator Barrasso. We must allow these communities to 
succeed. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Let me just make a 
comment since Senator Barrasso raised the issue of the 
Antiquities Act. We've had a lot of discussion about that over 
the years.
    I just wanted to indicate for the record that I think 
Secretary Babbitt, President Clinton and yourself deserve great 
credit for some of the designations that were made under the 
Antiquities Act. One in my State was the Tent Rocks Monument 
which was very much appreciated and something that I think has 
been a good thing for our State.
    I also wanted to just complement President Bush for his use 
of the Antiquities Act on the sixth of January to designate the 
Marianas Trench, the Pacific remote islands and the Rose Atoll 
Marine National Monuments. I think that's another example where 
that act has been very useful.
    Did you have additional questions, Senator Udall.
    Senator Udall. Mr. Chairman, I want to make sure you have 
the last word. But I would add to your list of important uses 
of the Antiquities Act two additional national parks that were 
designated national parks after initially being designated 
national monuments. One, the Grand Canyon National Park which 
is seen as the crown jewel, perhaps, of the National Park 
System with all due respect to Yellowstone National Park and 
others that may want to vie for that title.
    In Colorado we have a new national park, the Black Canyon 
of the Gunnison National Park which was initially designated 
through the Antiquities Act as a national monument by I 
believe, President Hoover. That foresightedness on the part of 
President Hoover in that particular policy area left us the 
option in this timeframe to then create a new national park. So 
the Antiquities Act has been used to great effect, by and large 
and very appropriate ways as Senator Bingaman just pointed out 
with the recent actions of President Bush. Thank you, Mr. 
Chairman.
    The Chairman. Thank you for mentioning those other 
incidents or instances. Let me at this point indicate for the 
record that members will have until five tomorrow to submit any 
additional questions for the record.
    The Chairman. Thank you very much for all of your time this 
afternoon. We will hope to proceed with your nomination this 
next week.
    Mr. Hayes. Thank you, Mr. Chairman. Thank you, Senator 
Udall.
    The Chairman. That will conclude our hearing.
    [Whereupon, at 4:05 p.m. the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

    Responses of David J. Hayes to Questions From Senator Bingaman 
                    on Behalf of Senator Max Baucus
    Question 1. The 100th anniversary of the Park System in 2016 is 
quickly approaching--The National Park Service has taken good steps to 
build a strong foundation for the future, but much needs to be done to 
prepare our Parks for another century of conservation, preservation, 
and enjoyment, I am working to reintroduce the National Park Centennial 
Challenge Fund Act, a bill introduced in 2008 by then-Senator, now-
Secretary, Ken Salazar. A matching donation fund in the federal 
treasury that will provide up to 5100 million a year to the national 
parks in support of signature ``Centennial projects and programs.'' 
This would allow supporters of the parks to match their contributions 
with federal dollars to carry out a program or a project at a national 
park unit, provided that the project or program is approved by the Park 
Service and Congress. I feel that this additional funding would allow 
our national parks to reach their full educational, economic, 
environmental, and civic potential.
    Nominee Hayes, what is your plan to prepare our National Parks for 
the upcoming Centennial?
    Answer. The upcoming National Park Service centennial in 2016 
offers a great opportunity to celebrate our national parks' 
preservation of spectacular scenery, wildlife and the most significant 
places in our nation's history. As we prepare for the centennial, I 
will be a strong supporter of exploring ways to engage new audiences, 
particularly young people, in our national park's programs and 
stewardship. 1 will also support continuing to engage park partners and 
the public in investing in the parks. The President's budget includes 
$25 million for FY 2010 for matching contributions toward programs and 
projects for the National Park System. In addition, I look forward to 
seeing the funding Congress provided through the American Recovery and 
Reinvestment Act used to make significant progress on addressing the 
serious backlog of park maintenance needs well before 2016.
    Question 2. How will you help to gamer support for legislation that 
would help to secure funds for projects related to the 2016 Centennial?
    Answer. I have not yet had an opportunity to fully review the 
issues surrounding the legislation providing for National Park Service 
centennial partnership projects and programs. However, Secretary 
Salazar has made known his strong interest in working with Congress to 
pursue legislation to provide dedicated funding for partnership 
projects and programs to improve our parks for the centennial. If 
confirmed, I will work with him to develop a strategy for that purpose.
    Responses of David J. Hayes to Questions From Senator Murkowski
    Question 3. In testimony before this Committee in both 2000 and 
2001, you discussed the evolution of our nation's long-standing 
moratoria on offshore development. Last year, however, the President 
lifted the executive ban, and the House and Senate agreed to allow the 
congressional ban to expire.
    As Deputy Secretary, would you advise Secretary Salazar and 
President Obama to reapply the executive moratorium on offshore 
development? Would you lobby Congress to do the same? Or do you agree, 
with the vast majority of the public, that those bans should not be 
resurrected?
    Answer. The Secretary has just announced the schedule for public 
meetings that the Department will be holding around the nation to 
discuss both conventional and renewable energy on the Outer Continental 
Shelf. If confirmed, I look forward to reviewing the input received at 
these meetings as well as the report the MMS and USGS are preparing on 
this issue. Improving our nation's energy independence is important to 
our economy and our environment. I believe we should look at all of our 
options and then focus our effons where it makes the most sense.
    Question 4. I hope you are aware of the effort of many to gain a 
nonessential-experimental population designation for the Woodland Bison 
near Fairbanks, Alaska so they can he reintroduced into the wild.
    According to a white paper that your staff shared with my office 
the ``ADF&G will not release Woodland Bison into the wild until the 
final special rule containing the nonessential experimental population 
designation and special conditions and exemptions are in place and 
determined to ensure sufficient protection to existing and future land 
uses.''
    The U.S. Fish and Wildlife Service and the Alaska Department of 
Fish & Game have been playing around with this proposal since the early 
1990's.
    Will you commit to direct the U,S. Fish & Wildlife Service to make 
a decision one way or the other on using the experimental population 
designation through the 10(j) and 4(d) provisions of the Endangered 
Species Act for the Woodland Bison within the next 6 months?
    I suspect that without such a listing there is no chance of 
releasing these animals into the wild and that would be a real shame.
    I also want you to understand that it is entirely unacceptable for 
the U.S. Fish & Wildlife Service to continue to play kick the can, year 
after year, by refusing to make a decision on the status in hopes of 
getting a different level of support from the Doyon's and the public.
    Answer. I understand that officials within the U.S. Fish and 
Wildlife Service are working with the Alaska Department of Fish and 
Game on reintroduction of wood bison in Alaska and that the Service is 
supportive of reintroduction. If confirmed, I will ensure that the 
Department works with the State of Alaska in a timely and responsive 
fashion on reintroduction of wood bison in Alaska and their 
classification under the Endangered Species Act.
    Question 5. Mr. Hayes, in response to a supplemental question asked 
by Senator Murkowski in your last confirmation hearing before this 
committee on September 15, 1999, you provided the following answer to 
this question----
    Senator Frank Murkowski: ``Do you think that it is appropriate in 
this day age to ignore NEPA compliance in a major federal action?''
    Your response: ``The National Environmental Policy Act applies to 
major federal actions taken by federal agencies. Clearly, federal 
agencies may not ignore NEPA in taking major federal actions. I am 
advised that Presidential and Congressional actions are not covered by 
NEPA.''
    I would like to explore the very last part of your response to that 
question. That would be ``that President and Congressional actions are 
not covered by NEPA''.
    Do you still hold that position?
If yes--
  <bullet> I want to make sure I am clear, that if the President or 
        Congress sends you a law that does not mention the need to 
        oompletc NEPA prior to implementation of a project you will 
        direct the agencies you oversee to implement the law or 
        Presidential order without a NEPA analysis, is that correct?
  <bullet> If Congress sends you a bill that does not expressly direct 
        NEPA or a Finding of Public Benefit requirement, say on a ]and 
        exchange, or the building of a transmission line, or the 
        building of a dam, how would you expect the implementing agency 
        to implement the law?
  <bullet> Given your answers do you think there is a need for Congress 
        to include direction to undertake NEPA or include a ``finding 
        of public interest'' requirement when passing legislation that 
        directs the implementation of projects on federal lands?
If no--
  <bullet> In 1999 you made it expressly clear that you did not think 
        that either the President or Congress were covered under NEPA. 
        What has changed either legally or in your thinking to alter 
        your position between 1999 and today?

    Answer. I continue to believe that the National Environmental 
Policy Act applies to major federal actions taken by federal agencies, 
and that federal agencies may not ignore NEPA in taking major federal 
actions. The coverage of NEPA in a specific circumstance is a legal 
question for which I would seek the advice of a NEPA expert. That is 
why I qualified my statement in 1999 that ``I am advised'' regarding 
the relationship between Presidential and Congressional actions and 
NEPA obligations. It is my general understanding that direct 
Presidential actions are not covered by NEPA, and that Congress can 
enact specific exceptions to NEPA. Given the legal nature of this 
question, I would look to the Interior Department's Solicitor to 
provide me, if confirmed, with appropriate guidance for how to apply 
these principles to any specific situation.
    Question 6. At a hearing held by this Committee in April 2001, you 
testified about the tremendous impact that deepwater royalty relief was 
having on offshore oil and gas production. There was much debate in the 
last Congress regarding the fact that some of the leases issued in 1998 
and 1999 did not contain royalty relief thresholds. Now the Fifth 
Circuit has upheld summary judgment from a lower court that Interior 
did not have the authority to impose royalties on those leases in the 
first place.
    Do you believe that it is appropriate to attempt to impose 
royalties on those leases retroactively, even if it ultimately means 
breaching contracts that were entered into with private companies? Will 
you continue to support the practice of deepwater royalty relief in the 
future?
    Answer. I believe the focus should be to ensure that the public 
receives fair value for these resources. The President's Budget 
Blueprint, released last month, calls for an excise tax on Gulf of 
Mexico oil and gas production starting in 2011 to ensure a fair return 
to the public--an approach that would not impose royalties 
retroactively. I look forward to working with Congress in considering 
how to best address this issue.
    Regarding deep water royalty relief, I have not yet had the 
opportunity to look at whether there are circumstances where such 
relief is currently appropriate. This is something that needs to be 
considered as we look at creating an energy policy that makes sense.
    Question 7. I realize that Interior does not have jurisdiction over 
the Clean Air Act, but it is nonetheless an issue that DOI should have 
an interest in since the some of the department's offshore leases are 
significantly encumbered.
    My concern is that it appears to be unreasonably difficult to 
obtain an air permit for offshore exploration activity. Offshore 
exploration is not development or production; it is just a temporary 
activity. The drill ship moves onto a site for 30 to 60 days and then 
leaves. The emissions from the drill ship are small and temporary--
insignificant compared to permanent installations. Shouldn't it be 
relatively straightforward to permit these exploration activities?
    Specifically, one company has tried for three years to receive a 
final air permit. Three years and I am told they have spent well over 
$11 million. The amount of money spent by the federal government is 
likely significant as well. Given the temporary nature of offshore 
exploration drilling activities and the relatively insignificant level 
of air emissions involved, in combination with the fact that the 
exploration drilling season is at most three months long on the Alaskan 
OCS, I am concerned that a situation of diminishing returns is being 
created. Ultimately, how can the Department of the Interior expect to 
ever run a strong leasing program if air permits continue to cause 
delays and increase costs?
    Answer. One of the goals for meeting our energy needs must be to 
ensure that we are promoting the right kind of development in the right 
places. Achieving that goal will require us to have effective and 
efficient government operations and processes. If confirmed, I will 
reach across agency lines to identify where bottlenecks exist, promote 
coordination among agencies, and fashion solutions to ensure that 
unnecessary delays are eliminated. If confirmed, I will certainly look 
into the circumstances surrounding this issue to see what needs to be 
done to meet our country's energy needs.
    Question 8. One of the most important aspects of any legislation is 
the precise and accurate definition of the key terms included within 
it. This is particularly true for the term ``renewable energy.'' Can 
you list the resources that you consider to be renewable?
    Answer. On March 11, 2009, Secretary Salazar issued Secretarial 
Order Number 3285, establishing the development of renewable energy on 
the public lands and the Outer Continental Shelf as a priority for the 
Department of the Interior. In that Order, the Secretary mentioned 
solar, wind, geothermal, incremental or small hydroelectric power on 
existing structures, and biomass energy as renewable energy sources. 
The Secretary has also indicated that future Outer Continental Shelf 
development should include consideration of wind, wave, and ocean 
current energy as sources of renewable energy. I think this provides a 
good list of the sources that may qualify as ``renewable energy.'' I 
also believe it is important to remain flexible about the possibility 
of identifying additional sources for which the term ``renewable 
energy'' would be appropriate.
    Question 9. In transitioning to cleaner energy technologies, I am 
concerned that we risk trading our reliance upon foreign oil for 
reliance upon other foreign minerals. We are 56 percent reliant upon 
imports for the silicon in solar panels, 100 percent reliant upon 
imports for the rare earths contained in hybrid-electric vehicle 
motors, and 91 percent reliant upon imports for the Platinum used in 
fuel cells and other applications. And much of these imports come from 
places like China, Venezuela, and Russia.
    How important do you believe it is that the raw materials for clean 
energy technologies be produced here in the United States?
    Would you consider the jobs associated with providing the raw 
materials for clean energy technologies to be ``green''?
    Answer. It is important for the raw materials for clean energy 
technologies to be produced here in the United States when possible and 
economically feasible. President Obama has made clean energy technology 
development an important component of his plans for the recovery of our 
economy. I believe environmentally responsible production of the raw 
materials needed for new clean energy technologies can be a part of 
that effort.
    Question 10. Less than a year ago, you testified before the Senate 
Foreign Relations Committee on Cap-and-Trade legislation and your 
support for the inclusion of an Emission Allowance Account ``for use in 
carrying out forest carbon activities in countries other than the 
United States'' in such a measure. In the President's budget blueprint, 
however, he has committed to a 100 percent auction of allowances, which 
would not allow for the creation of any allowance accounts.
    Have you revised in any way your position on spending money raised 
through Cap-and-Trade on forestation in other countries as a result of 
the global climate change policies contained in the President's budget 
blueprint?
    Answer. In the testimony that I delivered for the World Wildlife 
Fund, I referenced WWF's support for a specific provision in the 
Lieberman-Warner bill that would provide funding for local citizens and 
institutions to monitor forest carbon. If confirmed, I will adhere to 
whatever position the Administration develops in climate change 
negotiations and in the legislative context, including whatever funding 
approaches or priorities it may adopt for forest carbon activities.
    Question 11. Mr. Hayes, in a number of situations the U.S. Fish & 
Wildlife Service has utilized the 4(d) and 10(j) provisions of the 
Endangered Species Act and regulations to designate certain species as 
a ``nonessential-experimental population''. This helped facilitate the 
reintroduction of species in areas, on private land that might not 
otherwise have been able to be re-introduced. One that comes to my mind 
is the Aplomado (Ap-lo-muad-o) falcon restoration in New Mexico.
    Could you tell us how those efforts are progressing?
    Answer. The nonessential experimental population designation under 
the Endangered Species Act enables the U.S. Fish and Wildlife Service, 
in appropriate situations, to reintroduce listed species and assist in 
their recovery in a manner that minimizes conflict with human 
activities and provides regulatory flexibility in their management. I 
have been informed that in the Southwest, where falcons have been 
reintroduced as a nonessential experimental population since 2006, 
there are now breeding pairs of aplomado falcons in both New Mexico and 
Texas as a result of the Service's work and that of partners such as 
the Peregrine Fund.
    Question 12. Mr. Hayes, I know you are acutely aware of the 
situation in the intermountain west with the overpopulation of Wild 
Horse and Burros on some rangelands in Nevada, Idaho, Utah, Wyoming and 
Montana. It was a problem when you left the Clinton Administration and 
the problem continued through the Bush Administration. Now due to 
prolonged draught, ever expanding wild horse populations, over 
populated wild horse facilities, limited budgets, and the failure of 
the Bureau of Land Management to utilize its legislative authority to 
euthanize horses, the Bureau is in a crisis on some ranges when it 
comes to wild horses.
    When you left the government in 2001 what were the estimated 
populations of wild horses in the intermountain states? What are they 
today?
    Answer. I know that maintaining healthy wild horse and burro 
populations on healthy public rangelands is important to Secretary 
Salazar. I understand that since 2001, the BLM has reduced on-the-range 
herd numbers by 25 percent--from 45,500 to about 34,000. I am aware 
that this is an ongoing issue; wild horses have no natural predators 
and herd populations can double every four years. The BLM must remove 
thousands of animals from public rangelands each year to ensure that 
herd sizes are consistent with the land's capacity to support them, and 
to ensure healthy landscapes. If confirmed, I am committed to working 
with the Congress, stakeholders and the BLM to develop a workable 
strategy for managing herd populations both on the range and off-range.
    Question 13. I know the Bureau has expressed real concerns about 
Mrs. Madeleine Pickens' plan to move 30,000 of the horses to her 
preserve. What are the agency's options if the Pickens' plan to take 
30,000 horses off the range and out of the holding facilities does not 
come to fruition?
    Answer. I know that Secretary Salazar greatly appreciates Mrs. 
Pickens' desire to protect wild horses, and I understand that the BLM 
is open to continuing its discussions with Mrs. Pickens and her 
representatives. I understand that the GAO recently reported to the 
Congress that the BLM has limited options for dealing with unadopted 
animals, and that the costs of pasturing the excess animals removed 
from the range continue to overwhelm the program. If confirmed, I am 
committed to working with the Congress, stakeholders, and the BLM to 
improve the way excess animals are managed while at the same time 
protecting the wild herds in designated Herd Management Areas, their 
habitat, and the public lands from the destructive effects of 
overpopulation.
    Question 14. Mr. Hayes, in your original confirmation hearing 
before this Committee you mentioned your involvement in the Headwaters 
Forest Settlement in California. Can you describe what has happened to 
the major players in that agreement (i.e, Pacific Lumber Company, the 
State of California, and the U.S, Forest Service) since the agreement 
was concluded? Are the U.S. Forest Service, the State, and Pacific 
Lumber Company better off today than prior to that agreement?
    With the benefit of hindsight is there anything you would do 
differently today, as compared to the agreement that you helped to 
develop?
    Answer. Congress established the agenda for the Headwaters Forest 
transaction, including the terms for the purchase of the Headwaters 
Forest, and the requirement for the negotiation of a Habitat 
Conservation Plan for neighboring lands that remained in private 
ownership. I was part of a team at the Interior Department that 
effectuated this Congressional intent. I did not remain involved in the 
Headwaters Forest matter after leaving the Interior Department in 2001. 
As a result, I am not in a position to comment on the relative benefits 
associated with the protection of the Headwaters Forest and the Habitat 
Conservation Plan that the landowner voluntarily entered into with the 
United States.
    Question 15. Mr. Hayes, in your April 22, 2008 testimony before the 
Senate Foreign Affairs Committee on international deforestation, you 
spoke quite eloquently about tropical deforestation, and the Kyoto 
Accords. You reported that the World Wildlife Fund did not believe that 
countries should be allowed to get credit for existing forest resources 
as a means to avoiding having to reduce emissions.
    Do you still hold that opinion?
    If so, when a country allows its forests to burn or be consumed by 
insect and disease do you believe there should be a price that country 
has to pay within a global greenhouse gas reduction scheme? Or should 
we just ignore the fires and neglect what is on going within the 
borders of those countries, in terms of forest management practices?
    Answer. As explained in the testimony, in 1997, when the Kyoto 
Protocol was negotiated, WWF objected to countries relying on existing 
forestry resources as a means of avoiding having to reduce emissions 
from industrial sources. As pointed out in the testimony, however, 
``the times and circumstances have changed'' and WWF indicated that all 
forest-related issues should now be on the table, including forestry 
management issues. As a general matter, if confirmed, I anticipate that 
I will adhere to whatever position the Administration develops 
regarding the treatment of forest-related issues in climate change 
negotiations and in the legislative context.
    Question 16. Over the next few years, the Department of the 
Interior will play an important role in analyzing our available water 
resources, the impact of climate change on these resources, and the 
availability of these resources in maintaining and developing 
additional supplies of energy.
    Please describe how recommendations aimed at climate mitigation and 
adoption may shape policies developed in the energy and water sectors, 
and, specifically, to the interrelationship between energy-water.
    Answer. This is an important topic to which the Department will be 
giving significant consideration as we try to understand how climate 
change is affecting our resources and to anticipate and react to those 
impacts. If confirmed I would be happy to keep your office informed of 
our progress.
    Question 17. Please describe the key institutions, within the 
Department of the Interior, and other Federal agencies, that should be 
strengthened to ensure more integrated and effective policy making on 
climate, energy and water.
    Answer. As I noted in my response to the previous question, the 
answers to this question will be more fully developed as we continue 
our efforts to understand how climate change is affecting our 
resources, and to anticipate and react to those impacts. If confirmed, 
I would be happy to keep your office informed of our progress.
    Question 18. Amidst all of the other areas of jurisdiction for the 
Department of the Interior it can be easy to overlook the Department's 
responsibilities to the territories of Guam, the Northern Marianas, 
American Samoa, and the U.S. Virgin Islands. What steps will you take 
to ensure that the territories receive the attention and assistance 
they need, both from within the Department of the Interior as well as 
from other federal departments and agencies?
    Answer. The United States territories are largely self-governing, 
much like states. Departmental officials seek not to infringe on that 
self-governance. However, there are times when issues arise that are 
outside the province of local self-government. When that occurs, I 
would expect to work through the Department's Office of Insular 
Affairs, to seek solutions. In addition, issues may arise that could 
lend themselves to consideration by the Interagency Group on Insular 
Affairs (IGIA).
    While both the Office of Insular Affairs and IGIA provide 
institutional bases for solving issues of concern in the territories, 
Secretary Salazar and I, if confirmed, plan to consider possibilities 
for increasing the authority and effectiveness of these institutions.
    Question 19. Your name comes up in a couple of September 1999 
Washington Times articles concerning the Secretary Babbitt having to 
recuse himself from involvement in decisions and discussions concerning 
the Canyon Forest Village near the Grand Canyon. Those articles suggest 
that Secretary Babbitt used you as his surrogate to communicate his 
desires concerning that project to the Forest Service who were 
developing an Environmental Impact Statement on the project.
    Please describe what your role was in the communications between 
Secretary Babbitt and the Forest Service on the Canyon Forest Village 
project.
    Answer. In 1999, the Senate Energy and Natural Resources Committee 
examined those allegations on a bipartisan basis and found them to have 
no merit. Chairman Frank Murkowski reported this conclusion in a 
Committee meeting of October 20, 1999. As former and current Committee 
staff who were involved in this matter can confirm, I did not 
participate in decision-making that the Forest Service was undertaking 
with regard to the proposed Canyon Forest Village, a development 
proposed for construction outside the boundary of the Grand Canyon 
National Park on U.S. Forest Service land.
    Question 20. Having been placed in the position of being Secretary 
Babbitt's surrogate in those discussions can you give us your assurance 
that you will not require any Department of Interior employee from 
having to perform a similar role on any of the issues that you have 
recused yourself from if you are confirmed as Deputy Secretary?
    Answer. As I stated in my response to the previous question, in 
1999 the Senate Energy and Natural Resources Committee examined those 
allegations on a bipartisan basis and found them to have no merit. 
Chairman Frank Murkowski reported this conclusion in a Committee 
meeting of October 20, 1999. As former and current Committee staff who 
were involved in this matter can confirm, I did not participate in 
decision-making that the Forest Service was undertaking with regard to 
the proposed Canyon Forest Village, a development proposed for 
construction outside the boundary of the Grand Canyon National Park on 
U.S. Forest Service land.
    Question 21. In Section 388 of the 2005 Energy Policy Act, Congress 
directed the Department of the Interior to issue leases, easements or 
rights of way for alternative energy projects on the Outer Continental 
Shelf. To date, however, the Minerals Management Service (MMS) has not 
issued its Final Rule on offshore energy production and no leases or 
other permits have been granted pursuant to this authority. The Cape 
Wind project, for example, has been pending since 2001. When do you 
expect the MMS to have its offshore energy program up and running?
    Answer. Secretary Salazar has publicly stated that publishing the 
final rule for offshore renewable energy is a top priority. The rule is 
currently under review so that we can better understand its operation 
and determine whether there are any parts of the rule that can be 
improved. If confirmed, I will work to see that a final rule is 
published as soon as possible.
    Question 22. Mr. Hayes, I remain interested in the December 2008 
Utah Oil and Gas leasing situation and would like for the Department of 
the Interior to which you have been nominated to provide the following 
information:
    A list of each of the original parcels nominated and who nominated 
each parcel to be considered by the BLM for lease for the fall 2008 
lease sale. If you cannot provide individual names, or company names, 
please tell us if the lease request came from a company, individual 
known to work in the oil or gas industry, or from an individual that is 
not known to work in the oil or gas industry.
    Answer. I understand that after an oil and gas lease sale, the BLM 
will make information available about the parcels sold and successful 
bidders. However, the BLM does not release information regarding 
original expressions of interest for parcels to be included in an oil 
and gas lease sale unless and until those parcels are actually offered 
at an auction and then only upon request. This is considered to be 
proprietary information. Releasing this information could expose the 
nominating party's exploration and development strategies to their 
competitors and affect the integrity of the auction process and the 
value of bid received. In this instance, all of the nominating entities 
were either known industry representatives or individuals who work with 
industry. The BLM advises me that it has not received requests for 
leasing from individuals not known to work in the oil, and gas 
industry. If confirmed, I will ensure that the BLM provides you with a 
copy of the appropriate information related to this lease sale.
    Question 23. The criteria used by the Department of the Interior to 
determine which parcels would be withdrawn from the December 19, 2008 
lease auction. The Administrative record on how parcels were added to 
the list for the sale and how each parcel that was withdrawn got 
withdrawn, along with all e-mails, letters, or records of phone 
conversations related to requests to add or withdraw individual parcels 
from the fall 2008 lease sale in Utah.
    Answer. As you know, Secretary Salazar has expressed his goal of 
ensuring that oil and gas resources are developed in a thoughtful and 
balanced way that complies with all legal requirements. The 77 leases 
in questions were the subject of a court challenge that led to the 
entry of a restraining order by a federal district court judge. The 
court concluded that it did not appear that all legally-required 
environmental analysis had been completed for the leases, and that 
irreparable harm could occur if the sale of those particular leases 
were to go forward. The 77 leases that Secretary Salazar withdrew from 
the sale were the same 77 leases that the court enjoined from sale on 
this basis. Secretary Salazar removed the leases from the sale to 
provide an opportunity to review the legal adequacy of the sale. He has 
committed to undertake that review and, if confirmed, I will work with 
you as that review proceeds. I understand that, upon completion of this 
review, it is possible that some of these parcels may be offered in 
future lease sales.
    I am also advised that the BLM compiles an Administrative Record 
for each of its oil and gas lease sales. If confirmed, I will ensure 
the BLM transmits to you a copy of the appropriate records for the 
December 19, 2008, Utah oil and gas lease sale.
    Question 24. The date of the next lease sale to be held in Utah, 
given that the law calls for there to be four lease sales per year, and 
if you delay the March offerings, on what dates will those sales be 
held to meet the four sales per year direction?
    Answer. I understand that Utah's next quarterly oil and gas lease 
sale is scheduled for March 24. Subsequent oil and gas lease sales for 
2009 are currently scheduled for May 19, August 18 and November 17.
    Question 25. In Secretary Salazar's February 6, 2009 memorandum to 
State Director Selma Sierra, he directed that the 77 leases be 
withdrawn. In his press statements the Secretary indicated that 
Interior would conduct further review on whether coordination between 
agencies and consideration of ``cultural resources'' were adequate.
    Please provide the Committee with a detailed plan for that review, 
including who will undertake the review, who within the BLM, MMS, and 
Department will participate in the review, who will lead the review, 
and deadlines for accomplishing the review.
    Answer. Due to ongoing litigation surrounding this lease sale, it 
is my understanding that the BLM has not begun this review, and is 
currently working with the Solicitor's Office on how best to proceed. 
If confirmed. I commit to keeping you fully informed as this situation 
evolves.
    Question 26. Is it the BLM's or the Secretary's intention to 
include any public hearings or meetings in relation to this review, and 
if so how many and where they will be held?
    Answer. As I noted in the respomse to my previous question, due to 
ongoing litigation surrounding this lease sale, I understand that the 
BLM has not yet begun this review and is currently working with the 
Solicitor's Office on how best to proceed. If confirmed, I commit to 
keeping you fully informed as this situation evolves.
    Question 27. As soon as that review is completed I would like your 
office to send a copy of it, along with its recommendations and the 
Secretary's decisions on these leases, to the Committee.
    Answer. Due to ongoing litigation surrounding this lease sale, I 
understand that the BLM has not yet begun this review and is currently 
working with the Solicitor's Office on how best to proceed. If 
confirmed, I commit to keeping you fully informed as this situation 
evolves.
    Question 28. Please also provide the Committee a detailed log of 
contacts between Agency or the Department and the State and or Federal 
Prosecutor related to the bid opening for the Utah lease sale which was 
held in December of 2008. Please include the names of the employees who 
made the contact, the nature of the contact, and any requests that were 
made by the Secretary, his office or any of the Department or Bureau of 
Land Management's employees.
    Answer. I understand that this matter is the subject of an ongoing 
Federal investigation. All materials related to the case, including any 
records of communications between agency employees and State or federal 
prosecutors are within the exclusive control of the Assistant United 
States Attorney for Utah.
    Question 29. Has a new Administration ever come in, prior to the 
current Administration, and had its Interior Secretary reverse a lease 
sale? What is the administrative review process for such a reversal?
    Answer. While I am not personally aware of another situation where 
an incoming Secretary of the Interior has deferred leasing parcels 
awarded at an oil and gas lease sale, the Secretary has the authority 
to administratively review oil and gas lease decisions.
    Question 30. Mr. Hayes, in recent years, the Park Service has 
demonstrated an inexplicable resistance to embrace the willingness of 
qualified volunteers to help address wildlife overpopulation situations 
in national parks. There are tragic overpopulation issues where our 
majestic elk herds are dying of starvation and depleting their habitat, 
but the park service has repeatedly resisted efforts to employ the free 
services of qualified volunteers, instead in some instances paying 
millions of dollars to foreign companies to hire snipers. At the same 
time, the park service routinely tells the Congress that it needs more 
funding to manage our parks. Can you give me your opinion on this 
inexplicable inconsistency?
    Answer. I am aware that overabundant ungulate populations, 
particularly deer and elk, are common in many modern landscapes, 
including National Parks. The NPS Organic Act and longstanding NPS 
policy allow hunting only where it is either mandated or authorized by 
federal statute. Sixty-one park units authorize hunting. Where hunting 
is not mandated or authorized, the use of skilled volunteers, pursuant 
to the Volunteers in the Parks Act, is being considered and in some 
cases, implemented to assist NPS in reducing deer and elk populations 
where it is compatible with existing law, regulations, and NPS Policy. 
I am unaware of any National Park that currently contracts with foreign 
companies to control native populations of wildlife.
    Question 31. Mr. Hayes, just two days ago the park service 
announced a ban on the use of traditional ammunition in all park lands. 
The park service's news release does not cite scientific evidence that 
wildlife populations are being negatively impacted by the use of 
traditional ammunition, and there is no indication that park visitors' 
health was affected in any way by hunters and wildlife managers using 
traditional ammunition.
    Ammunition containing lead components has been the choice of 
hunters for well over 100 years, during which time wildlife populations 
in America have surged. Also, there has never been a documented case of 
lead poisoning among humans who have eaten game taken with traditional 
ammunition, and a recent Centers for Disease Control and Prevention 
study on North Dakota hunters who consumed game confirmed that there 
was no reason for concern over eating game taken with traditional 
ammunition. Can you advise the committee whether the park service will 
be making its regulatory decisions with any scientific basis? Or is the 
service pursuing some form of agenda hostile to the Second Amendment 
rights of Americans?
    Answer. My understanding is that the announcement made last week by 
the NPS indicated NPS's intention to begin to remove lead from a 
limited range of activities conducted by the NPS. I am assured that the 
reduced use of lead is not intended to have any impact on Second 
Amendment rights, and is not intended to impact hunters in those parks 
where hunting is allowed. If confirmed, I will follow up with the 
Committee on this issue and ensure that any actions taken by the NPS 
along these lines are supported by sound science and do not impinge 
Second Amendment rights in any way.
    Question 32. As you know, I'm committed to the construction of a 
natural gas pipeline that will bring Alaska's gas to market.
    Do you support additional federal incentives for the Alaskan 
Natural Gas Pipeline?
    Answer. At his confirmation hearing, Secretary Salazar specifically 
stressed the importance of prioritizing the construction of the Alaska 
natural gas pipeline. The pipeline will play a key role in providing 
access to the substantial natural gas resources in Alaska that can 
significantly contribute to our nation's energy and security needs.
    Question 33. Back in 2004 Congress passed a provision that 
authorized the government to take over and study an independent 
pipeline plan and financing mechanism to hring Alaska gas to market, 
should a pipeline project not proceed within 18 months. The entity to 
do that plan is not Interior, but Energy, but do you have any feelings 
about whether now is the time for greater actions to promote an Alaska 
gas line?
    Answer. The Secretary in his confirmation hearing emphasized the 
importance of prioritizing the construction of the Alaska natural gas 
pipeline. I know that in 2004, the Alaska Natural Gas Pipeline Act 
greatly enhanced the prospects for the pipeline by providing an $18 
billion federal loan guarantee, significant tax incentives, and 
streamlined permitting. In addition, the State of Alaska, through the 
Alaska Gas Inducement Act, provided a $500 million incentive to the 
successful licensee. I am aware that since that time, two pipeline 
projects have been proposed, and various federal and state entities are 
reviewing the applications as part of the Federal Energy Regulatory 
Commission (FERC) process for natural gas pipelines. The Department of 
the Interior is a cooperating agency with FERC and the Office of the 
Federal Coordinator (established by the Alaska Natural Gas Pipeline 
Act) in this process. If confirmed, I look forward to working with the 
Secretary to support the efforts.
    Question 34. In the Energy Policy Act of 2005, Congress provided 
for 10-year lease extensions in the National Petroleum Reserve in 
Alaska (NPRA). That was because without a gas line being built, it is 
impossible for companies to develop their gas within a 10-year lease 
period with no possibility of being able to market their gas. Last 
year, however, there was talk of revising EPACT and again limiting 
lease terms under the mantra of ``use it or lose it.'' What is your 
feeling about the need for changes to leases, if there is any, for NPRA 
leases?
    Answer. During his confirmation hearing, Secretary Salazar 
expressed his support for responsible energy development in the 
National Petroleum Reserve-Alaska. I am aware of the particular 
challenges associated with oil and gas development in the NPR-A due to 
the limited window of opportunity in which exploration and development 
can occur. I am also aware that lease extensions are permitted under 
certain circumstances (e.g., discovery of an oil or gas resource). If 
confirmed, I am committed to the construction of a natural gas pipeline 
that will bring Alaska's gas to market and look forward to working with 
you and the Committee as this project progresses. With regard to ``use 
it or lose'' it, I look forward to working with you and other Committee 
Members to evaluate this legislation, including lease term extensions.
    Question 35. An issue of tremendous importance to my home state, 
Alaska, is the 1002 Area of the Arctic National Wildlife Refuge. If 
confirmed, would you support the development of this area, its 
permanent designation as wilderness, or leaving its status as it is 
today?
    Answer. Secretary Salazar is committed to continuing responsible 
oil and gas development throughout the United States. The decision 
regarding the potential use or designation of the 1002 Area of the 
Arctic National Wildlife Refuge ultimately will be Secretary Salazar's 
and the President's.
    Question 36. This past November, the U.S. Geological Survey 
released its assessment of gas hydrates located beneath the North Slope 
of Alaska. The survey indicated that up to 85.4 trillion cubic feet of 
this clean-burning resource may be present, but that additional 
research would be necessary to demonstrate that it is economically 
viable and possible to produce. Do you support additional research 
related to gas hydrates? While DOE had some money, $15 million in its 
FY 09 budget, USGS still had no funding for such work. What is your 
reaction to USGS getting back into the study of methane gas hydrates?
    Answer. I have been informed that the U.S. Geological Survey has 
been studying gas hydrates since the mid-198O's. This long record of 
gas hydrate research has allowed for recent advances such as the 
technically recoverable resource assessment released in November, 
current efforts by the USGS and the Bureau of Land Management to 
evaluate the impact of gas hydrate energy resource development in 
Northern Alaska, and the planning of long term production tests on this 
important potential energy resource. I look forward if confirmed to 
learning more about natural gas hydrates.
    Question 37. As a top official at Interior Secretary, the 
environmental community will likely press you to designate even more 
federal lands in Alaska, perhaps by creating de facto wilderness areas 
via the Antiquities Act. However, the aptly named ``no-more'' clause in 
the Alaska Lands Act bars the withdrawal of more than 5,000 acre tracts 
in Alaska for more than a year absent Congressional approval. What is 
your position on land withdrawals under the Antiquities Act?
    Answer. If confirmed, I will work with the Solicitor of the 
Department of the Interior to ensure that the Department complies with 
the Alaska National Interest Lands Conservation Act and all laws.
    Question 38. March 24th is the 20th anniversary of the Exxon Valdez 
Oil Spill that savaged the environment in Alaska's Prince William 
Sound. Three years ago the Department of Justice at the encouragement 
of the Interior Department and this Senator filed papers to ``reopen'' 
the civil settlement with Exxon involving damages to seek additional 
money to pay for cleanup efforts. The government agreed to seek $92 
million in additional aid to speed cleanup on beaches where oil can 
still be found in the gravels. Efforts to press the ``reopener'' clause 
have been moving seemingly slowly. Can you give me any information on 
your feelings about the reopener and if there is anything you can do at 
Interior to speed the court action to gain those funds, perhaps by 
better funding research needed to make the legal case for the need for 
the funds to pay for additional cleanup?
    Answer. As a result of my prior positions at Interior, I am 
generally aware of the ``reopener'' provisions of the settlement which 
enable both the United States and the State of Alaska to obtain 
additional recoveries from Exxon for the restoration of the natural 
resources injured by the oil spill. I am not personally familiar with 
the status of the reopener claims presented by the United States and 
Alaska. If confirmed, I will work closely with our Solicitor's Office, 
the Department of Justice and the State of Alaska to ensure that we 
provide the support necessary to further these claims and that the 
obligations of Exxon under the 1991 settlement are fully met.
    Question 39. The U.S. Fish and Wildlife Service is considering 
listing dozens of Alaskan species under the Endangered Species Act, 
such as walruses and seals, in addition to Beluga whales. The North 
Slope Science Initiative (NSSI) was established in Alaska to produce 
sound science upon which to base these important policy decisions but 
funding for the NSSI has been very limited and is nonexistent in the FY 
09 Omnibus budget. Will you support additional funding for the NSSI as 
you build your detailed FY 10 budget submissions for release next 
month?
    Answer. We value the added scientific information that is made 
available through the North Slope Science Initiative. I will evaluate 
the funding opportunities for the NSSI as we develop our future 
budgets.
    Question 40. As we celebrate the 50th anniversary of Alaska's 
statehood, we are still waiting for the federal government to complete 
the land conveyances promised to the State in 1959. Four years ago, I 
sponsored the Alaska Statehood Lands Acceleration Act to complete the 
conveyances within the next year. While enactment of that legislation 
did improve the pace somewhat, approximately 35 million acres of land 
must still be transferred. If confirmed, will you commit to providing 
funding to help complete these land transfers?
    Answer. We are eager to complete the conveyance of these lands to 
the State and Native Corporations. I will commit to examine the funding 
opportunities for the Alaska Conveyance program in the Bureau of Land 
Management's budget.
    Question 41. Included in the Committee's omnibus lands package now 
pending before the House, and perhaps soon back before the Senate in a 
vehicle other than S-22, is a land-exchange involving the Izembek 
Wildlife Refuge. This legislation provides for a one-lane gravel road, 
from Cold Bay to the King Cove airport, for medical emergency cases. 
What is your position on this legislation? As a key Interior official, 
will you support the package if the House passes it and sends it to the 
President for his signature?
    Answer. I have not had an opportunity to review the numerous 
provisions included in S. 22, the Omnibus Public Land Management Act. 
Therefore, I am not in a position at this time to make specific 
recommendations regarding whether or not the President should sign it 
into law. In regard to the Izembek National Wildlife Refuge provision 
specifically, I am cognizant of the safety concerns of the local 
communities, as well as the environmental concerns voiced by a variety 
of organizations. If confirmed, I will work in the Department of the 
Interior to ensure that the Department complies with this provision if 
it is signed into law.
    Question 42. The BLM has done a good job in recent years in funding 
the cleanup of abandoned oil wells in northern Alaska--wells developed 
by the government in National Petroleum Reserve as part of its 
government-led exploration efforts in the early 1980s. The FY 09 bill 
includes $6 million in funding, for which we are very appreciative. 
Unfortunately the estimates are that there is another $150 million of 
cleanup work still needed from abandoned, federal, not private industry 
drilled wells. Will you support this continued funding in the Interior 
Department's budget?
    Answer. I am aware that the remediation of the historic abandoned 
oil wells in the National Petroleum Reserve-Alaska is an important 
issue. If confirmed, I will work to support the BLM in its ongoing 
efforts to evaluate and address these abandoned wells to protect public 
health and safety and the environment.
      Responses of David J. Hayes to Questions From Senator McCain
    Question 43. As you know, 18 U.S.C. Section 207(c) sets forth, 
``any person who is a officer or employee of the executive branch of 
the Unites States (including an independent agency)...within 1 year 
after termination of his or her service or employment as such officer 
or employee'' may not knowingly make ``with the intent to influence, 
any communication to or appearance before any officer or employee of 
the department or agency in which such person served within 1 year 
before such termination, on behalf of any other person (except the 
united States), in connection with any matter on which such person 
seeks official action by any officer or employee of such department or 
agency...''
    Attached are three lobbying disclosure reports* that were filed by 
Latham & Watkins stating that you lobbied the Department of Interior 
during the period of July 1, 2001, to December 31, 2001, in an apparent 
violation of 18 U.S.C. Section 207(c). As I understand it, you left the 
Department of Interior in January of 2001. Please explain 
representations on behalf of clients Hearst Corporation Sunical Land & 
Livestock Division and Sempra Energy in 2001.
---------------------------------------------------------------------------
    * Reports have been retained in committee files.
---------------------------------------------------------------------------
    Answer. As I stated at the hearing, and as explained in a letter 
that I provided to the Committee on March 9, 2008, I did not contact 
any official at the Interior Department on behalf of a client within 
one year of my service as Deputy Secretary of the Interior in the 
Clinton Administration.
    Confusion apparently has arisen because the Lobbying Disclosure Act 
requires that Latham & Watkins file a single lobbying report for each 
company for each reporting period. This single report must list all 
covered entities that have been contacted by any Latham & Watkins 
employee during the relevant period, and it also must identify all 
individuals in the firm who have engaged in any lobbying contacts 
during the period, even if an individual (such as me) had no lobbying 
contacts with some of the entities listed on the report (such as the 
Department of the Interior). It is because the Act requires that all 
individuals and entities contacted be filed on a single report that my 
name appears on reports that Latham & Watkins filed for two companies 
in 2001, even though I did not contact any official at the Interior 
Department on behalf of either company in 2001.
    With regard to the lobbying contacts that I made during the one 
year period after I left the Department of the Interior in January 
2001, my lobbying contacts for the Hearst Corporation were limited to 
briefings with Congressional delegations about the potential 
conservation of Hearst Ranch property in San Simeon, California and, 
for Sempra Energy, Congressional briefings regarding the potential 
construction of an electric transmission line in southern California.
    Question 44. In your letter to Melinda J. Loftin, Designated Agency 
Ethics Official and Director for the U.S. Department of Interior, you 
state ``[o]n December 31, 2008, I retired from my position as a partner 
with the law firm of Latham & Watkins.'' Until December 31, 2006, it 
appears you spent your entire career at Latham & Watkins serving as a 
registered lobbyist for many of the firm's clients, according to the 
Lobbying Disclosure Act Database.
    Did you stop lobbying activities beginning January 1, 2007, as 
shown by the Lobbying Disclosure Act Database? If so,why?
    Answer. During the 2001 to 2008 period, I was practicing law and 
was providing legal services to clients in a variety of matters, 
typically including negotiations and/or litigation regarding existing 
and/or potential legal disputes. I typically worked with teams of 
lawyers on legal matters only. I had minimal lobbying contacts for very 
few clients (only four, over the eight year period from 2001 through 
2008). In each case, the lobbying contacts were incidental to legal 
representations that the law firm was handling. The contacts 
constituted a very small percentage of the work that I was engaged in 
during the 2001 to 2006 period--and none during the 2007 and 2008 
period.
    With regard to the end of my lobbying contacts in 2006, I note that 
by 2006, I was only involved in a single matter that involved lobbying 
contacts. I was not the lead lawyer for the matter and had limited 
involvement in it. (This was a transmission matter involving complex 
rights-of-way that one of my partners was handling for San Diego Gas & 
Electric.) I was removed from the lobbying reports at the end of 2006 
because I was fully engaged in legal matters for other clients and was 
no longer an active participant in the legal team working on the 
project. Although Latham & Watkins dropped my name from the 
registration in 2006, the law firm maintained its registration for the 
matter, as required by the Lobbying Disclosure Act, so that the other 
lawyers at Latham & Watkins who were actively working on the matter 
could have the flexibility to provide briefings to Congress and 
relevant federal agencies on the matter, if needed.
    Question 45. If you were not lobbying on behalf of clients at 
Latham & Watkins beginning January 1, 2007, could you please explain 
what duties you performed at the firm from January 1, 2007, to December 
31, 2008?
    Answer. As explained above, during the 2001 to 2008 period, I was 
practicing law and was providing legal services to clients in a variety 
of matters, typically including negotiations and/or litigation 
regarding existing and/or potential legal disputes. I typically worked 
with teams of lawyers on legal matters only. I had minimal lobbying 
contacts for very few clients; in each case, the lobbying contacts were 
incidental to legal representations that the law firm was handling. My 
involvement in those few matters for which I had lobbying contacts 
ended by the end of 2006. In 2007 and 2008, I continued to handle legal 
matters, including negotiations and litigation matters--just as I had 
during my entire tenure at the law firm.
    Question 46. From a review of the lobbying disclosure forms filed 
by Latham & Watkins, it appears your firm continued to lobby the 
Department of Interior, the Senate and the House on behalf of many of 
the clients for whom you performed lobbying duties between 2001 and 
2006. To what extent did you continue to be involved with these clients 
between January 1, 2007, and December 31, 2008?
    Answer. The statement that lawyers at Latham & Watkins continued to 
lobby the Department of the Interior, the Senate and the House on 
behalf of many of the clients for whom I performed lobbying duties 
between 2001 and 2006 is not correct. Three of the four clients for 
whom I was a registered lobbyist prior to 2007 completed the projects 
that were the subject of lobbying contacts before the end of 2006. More 
specifically, the Hearst Corporation, Sempra Energy and MWD matters 
were completed in 2003, 2004 and 2005, respectively, and lobbying 
termination reports were filed in those years. The San Diego Gas & 
Electric matter continued at the firm after 2006, but without my active 
involvement, as explained above.
    Question 47. As I understand it, while working at the Department of 
Interior during the Clinton Administration, you served as the chief 
negotiator for the Department of Interior during discussions between 
water districts in California which included Metropolitan Water 
District as a party. You then left the Department of Interior and 
became a lobbyist for Metropolitan Water District. If confirmed, to 
what extent will you be involved in further negotiations with 
Metropolitan Water District or issues related to California water 
resources?
    Answer. As explained above, the nature and scope of my legal work 
for MWD at Latham & Watkins was narrow and the subject matter of that 
limited representation is not implicated in California water issues 
that are currently before the U.S. Department of the Interior.
    Question 48. You recently served as a Senior Fellow at the World 
Wildlife Fund and according to its website, ``As senior fellow at WWF, 
Hayes has been a key advisor on forestry issues, specifically on 
reducing carbon emissions from deforestation, and has played an 
integral role in developing WWF' s public policy strategy and has 
testified before Congress on behalf of the organization.'' Did you 
lobby Congress or the Department of the Interior during the past two 
years on behalf of the World Wildlife Fund?
    Answer. No, I did not lobby Congress or the Department of the 
Interior during the past two years on behalf of the World Wildlife 
Fund. I testified before the Senate Foreign Relations Committee, but 
that testimony was not a lobbying contact, as noted in Section 
3(8)(B)(vii) of the Lobbying Disclosure Act.
    Question 49. At the same time you served as the chairman of the 
Environmental Law Institute (ELI), you were representing clients of 
Latham and Watkins as Global Chair of the Environment, Land & Resources 
Department, some of whom were involved in energy development in Western 
states. One such client was Sempra Energy which sought to build a 
natural gas-fired power plant in southern California. That proposal was 
met with stiff resistance from state and local authorities who would 
have required Sempra to comply with strict air quality regulations. 
Facing mounting opposition and environmental analyses, Sempra opted to 
move its plant across the border to Mexico where environmental 
standards are less strict. To what extent, if any, was your role in the 
development of this project? Do you believe bypassing U.S. 
environmental laws was an honorable action by Sempra? How were you able 
to simultaneously reconcile the clear differences between the missions 
of Sempra, a Western energy company, and ELI, an environmental justice 
advocacy group?
    Answer. I had no involvement in the development of a natural gas-
fired power plant in Mexico by Sempra Energy, and I have no knowledge 
of the factors that Sempra Energy took into account in constructing the 
plant.
    Question 50. In 2005-2007, you represented Ford Motor Company in 
their attempts to have the Borough of Ringwood, New Jersey, pay the 
bill for the cleanup of Ford's industrial waste sludge--approximately 
$17 million. At the time you publically stated that it was 
``outrageous'' to suggest that the Mayor and Council of Ringwood were 
unaware of Ford's disposal activities. Do you still believe the 
Ringwood community possessed full knowledge of Ford's actions?
    Answer. Ford has been engaged in a legal dispute with the Borough 
of Ringwood regarding the cleanup of a historical disposal site that 
was successively owned and operated by both Ford and the Borough of 
Ringwood. EPA issued an Order that the Borough assist Ford in financing 
on-going cleanup activities at the site based on EPA's conclusion that 
the Borough shared liability for cleanup costs due to its prior 
involvement in waste disposal activities on the site. The letter 
referenced in your question pertained to the Borough's failure to 
comply with the EPA Order against the Borough. The dispute has not 
impacted on-going cleanup efforts at the site; Ford has been the sole 
financier of investigative and cleanup costs that have been incurred in 
the last several years.
    Question 51. In April 2006, you wrote an article for the 
Progressive Policy Institute that strongly condemned conservative 
energy and land management policies. Specifically, you wrote that 
conservatives believe ``the West's natural resources are inexhaustible, 
exploiting them will produce a bonanza of dollars and jobs, and federal 
bureaucrats with title to the land are the only thing blocking that 
utopian vision from becoming reality.'' Do you stand by the article? 
Can you pledge that your views of conservative policy will not prevent 
you from working constructively with conservative members of Congress?
    Answer. In the Progressive Policy Institute article, I criticized 
the Bush administration for ``push[ing] the conservative agenda in the 
West harder than many of its strongest supporters ever dreamed.'' I 
suggested that the Bush administration was reinforcing outdated and 
misinformed western stereotypes to promote a natural resources agenda 
that lacked balance. I do not believe that most Americans--whatever 
their political leanings--embrace natural resource policies that are 
not balanced, or the stereotypes that such policies can appear to 
reinforce. As discussed throughout the article, I favor pragmatic, 
common sense and solution-oriented approaches to resolving natural 
resources disputes and, if confirmed, I will work constructively with 
Congress and individuals of all political persuasions to address our 
natural resource challenges.
    Question 52. We have seen increasing concerns regarding the quality 
of the Colorado River water due to uranium tailings, nitrates, and 
pharmaceuticals. These issues have been raised and prioritized by the 
Colorado River Regional Sewer Coalition (CRRSCo). What role do you 
anticipate the Department of Interior will play in addressing water 
quality issues raised by CRRSCo?
    Answer. First, let me assure the Committee that I believe the 
overall water quality of the Colorado River is good. I understand the 
concerns about water quality along the Colorado River system as demands 
on the River continue to grow.
    I believe the Department must continue to seek opportunities to 
collaborate with the many and diverse stakeholders with interests in 
the Colorado River. No one agency can hope to address all the concerns 
involving the Colorado River by itself; however, we can work to ensure 
that these groups are successful by bringing the right agencies 
together to address specific issues.
    It is my understanding that the Department has already worked with 
the CRRSCo, exploring a possible method of reducing nitrates from 
municipal wastewater discharges and has facilitated bringing the 
Environmental Protection Agency (EPA) into the process of addressing 
water quality issues. EPA's involvement with the CRRSCo is appropriate, 
as that agency has the statutory authority and ability to play a more 
operational and positive role in meeting the CRRSCo members' needs. I 
see facilitation as an important role; one that the Department should 
continue.
    Question 53. In a March 2007 Bureau of Reclamation report entitled, 
``Wastewater Treatment Needs Along the Lower Colorado River,'' the 
Bureau concluded it would cost $2.1 billion over a 20-year timeframe to 
address nitrate pollution issues in the Lower Colorado River Basin. If 
confirmed, what measures will the Department of Interior propose to 
assist these smaller communities, who cannot raise the funds alone? How 
will you coordinate with other Federal agencies to address these 
concerns?
    Answer. I am aware of the referenced report and want to note that 
it was a preliminary assessment. I understand and agree that funding 
major wastewater treatment facilities can be an overwhelming burden for 
local governments, especially smaller communities. I believe the 
Department should always be sensitive to local needs and provide 
funding and technical assistance within its statutory authorities and 
budget capability.
    To assist smaller communities with wastewater treatment issues, the 
Department can facilitate communications with appropriate Federal and 
State agencies that have the authorities and capabilities to meet these 
needs.
    Currently, it is outside the statutory scope of authority of the 
Department and Reclamation to fund construction of municipal wastewater 
treatment facilities, and I would not seek an expansion of authority in 
this area. However, as a Federal agency with major operational 
responsibilities on the Colorado River, I believe the appropriate role 
is to be involved and provide leadership in coordinating with states, 
Indian tribes, and local communities to bring the right players to the 
table to resolve issues.
    Question 54. Quagga mussels have become a serious threat to the 
Lower Colorado River Basin, its lakes and tributaries. What is the 
Department's plan for abating the onslaught of quaggas?
    Answer. Aquatic nuisance species can have a significant negative 
ecological and economic impact. If confirmed, I will engage all the 
relevant Department of the Interior bureaus to strategically plan and 
implement invasive species prevention and control activities related to 
quagga mussels.
    Question 55. Five years ago, Congress authorized a boundary 
expansion of the Petrified Forest National Monument (P.L. 108-430) by 
means of acquiring both private and State-owned lands through purchase, 
donation, or exchange. How do you propose to manage the process that 
identifies state properties for acquisition by the National Park 
Service? How about for private properties identified for acquisition?
    Answer. I am aware that the acquisition of private and public 
property as part of this legislation is ongoing. The property in 
question is a checkerboard of federal, State and private lands. The 
identified private landowners have indicated their willingness to sell 
their property. Negotiations to purchase or trade federal lands to 
fulfill the terms of this legislation are near completion. If 
confirmed, I will direct staff to continue to work with our State of 
Arizona partners to review this situation and arrive at a resolution 
that will satisfy all parties.
    Question 56. I believe the responsible use of nuclear energy will 
play a pivotal role in addressing global climate change. About 90% of 
the uranium used in our nation's 120 operating nuclear power plants is 
imported from foreign countries. As demand for nuclear energy increases 
both in the U.S. and overseas, we will need to increase the development 
of our vast, untapped domestic uranium supplies. Do you believe uranium 
can be mined and reclaimed in an environmentally sound way using 
current technology?
    Answer. President Obama has stated that it is unlikely that we can 
meet our aggressive climate change goals unless we continue to utilize 
nuclear power. I am aware that uranium mining, vital to nuclear power, 
must comply with current surface management regulations, environmental 
laws, and Federal and state permitting requirements. Additionally, 
operators must submit a bond that covers the full cost of reclamation 
before any ground disturbing activity occurs. If confirmed, I will work 
to ensure that uranium mining on the public lands is done in an 
environmentally sound manner.
    Question 57. Can you assure the Committee that the Department will 
provide the necessary resources, within existing rules and guidelines, 
to complete the required environmental studies that are needed to 
assess the full impact of uranium mining in areas that are 
environmentally sensitive and culturally significant?
    Answer. Yes. If confirmed I will ensure that we budget adequately 
for the environmental studies that are necessary to assess the full 
impact of uranium mining on Federal lands and on natural and cultural 
resources.
    Question 58. There are several pending Indian water settlements in 
the West, as you likely know. For those settlements that Congress 
authorizes, how will you ensure there are sufficient resources to 
implement those settlements?
    Answer. During my past service to the Department of the Interior, I 
was responsible for the Department's Indian Water Rights Settlement 
initiative and these settlements are of personal interest to me. I am 
familiar with the funding challenges that new settlements face, having 
faced the same challenges with the settlements achieved under my watch. 
An unprecedented number of Indian water rights settlements are 
approaching finalization and many are already making their way through 
Congress. There is a real need for the Federal government to identify 
reliable and appropriate funding sources for these settlements. If 
confirmed, I will work with Congress and with the Office of Management 
and Budget to analyze potential funding sources and identify 
appropriate mechanisms for funding. Part of this analysis may involve 
consideration of whether other Federal agencies besides Interior with 
mandates that overlap the policy goals achieved through these water 
rights settlements could appropriately fund parts of settlements. On a 
case-by-case basis, I will also work with groups actively negotiating 
settlements to identify potential funding sources unique to individual 
settlements and to ensure that all reasonable cost sharing 
opportunities are fully explored.
      Responses of David J. Hayes to Questions From Senator Wyden
    Question 59. The 2007 energy bill included a definition of 
renewable biomass that excluded all biomass from Federal lands. I 
recently introduced a bill to amend the Clean Air Act to modify the 
definition of the term ``renewable biomass'' contained in the Federal 
Renewable Fuel Standard so that biomass from National Forests and 
Bureau of Land Management forests is eligible as a fuel source under 
this standard (S. 536). This definition includes protections for 
sensitive lands and requirements that projects be sustainable. I intend 
to work to ensure that this definition also gets incorporated into the 
Renewable Electricity Standard and other future pieces of legislation. 
Will you work with me to ensure that Federal lands aren't off limits as 
a source of biofuels?
    Answer. Development of renewable energy sources, including the use 
of biomass is an issue that is important to President Obama and 
Secretary Salazar. If confirmed, I will work to ensure that appropriate 
federal lands are available as sources of biofuels.
    Question 60. The recently passed stimulus includes funding for 
hazardous fuels reduction work, which has an incredible backlog. Will 
you work with the Senate Energy Committee and the Chief of the Forest 
Service to move aggressively to advance hazardous fuels reduction 
projects--particularly in areas where the danger to forests and 
communities is the greatest and where BLM and National Forest lands are 
intermixed and require an extra measure of coordination? And will you 
commit to helping identify opportunities to develop uses for woody 
biomass that would result from these fuel reduction activities and 
could provide a source of revenue to finance them?
    Answer. As I noted in my response to the previous question, 
development of renewable energy sources like biomass is an important 
issue and, if confirmed, I will ensure that the Department is working 
with all stakeholders in reducing hazardous fuels in a coordinated 
fashion and developing opportunities to use biomass from these 
projects.
    Question 61. I have been deeply troubled by the ethical problems at 
the Interior Department. Whether it's Jack Abramoff, or Steve Griles or 
Julie MacDonald, the news from the Interior Department shows example 
after example of an agency where private and political interest was 
placed above the public interest. One Inspector General report 
initiated at my request found that a former deputy assistant secretary 
inappropriately influenced two-thirds of the endangered species 
decisions that were investigated. As Deputy Secretary, what will you do 
to 1) make sure that the tainted decisions are fixed, 2) ensure that 
that these types of improper actions highlighted in the Inspector 
General's findings no longer take place at Interior employees and 3) 
build on Secretary Salazar's efforts to reform and clean up the Agency 
so that this never happens again?
    Answer. Secretary Salazar has made it clear that he will not 
tolerate the kind of actions that were highlighted in the Inspector 
General's report, and neither will I if confirmed as Deputy Secretary. 
I am also in firm agreement with the Secretary in stressing the 
importance of scientific integrity in our decisionmaking.
    Question 62. Senator Salazar made a commitment to get back to us 
with a timetable as to how and when the Department will correct the 
tainted decisions identified in the Inspector General's Report on 
endangered species decisions. Can you give us an indication of when we 
will be able to get that from the Interior Department?
    Answer. This issue is a high priority. I understand that these 
decisions are being reviewed as the Secretary gets his team in place 
and that he has said he will provide information on those matters at 
that time.
    Question 63. While these decisions are being revised, they are 
being used as a basis for a host of projects and land management 
decisions that are moving forward. How will you ensure those decisions 
and projects also receive review and that no improper harm comes to a 
species or its habitat while the tainted decisions are being reviewed?
    Answer. Review of these projects, as well as the decisions that 
allowed them to go forward, will occur as the Department's fish and 
wildlife and legal teams are put into place. I know that the Secretary 
is working deliberately in this regard.
    Question 64. Will you remove or reassign career staff who have been 
named by the Inspector General or Government Accountability Office as 
having improperly influenced species decisions?
    Answer. These are personnel matters and decisions that will be made 
in accordance with appropriate guidelines and requirements relating to 
the career civil service. The Secretary is on record, however, as 
noting that any necessary and appropriate steps to redress improper 
decision-making regarding endangered species determinations will be 
taken.
    Question 65. At the end of the last Congress, Sen. Barrasso and I 
introduced legislation to begin to reform the Minerals Management 
Service, by making the Director a Presidential appointee and Senate 
confirmed. It is the only major agency within Interior that doesn't 
have Senate confirmed director or statutory framework governing its 
responsibilities. We also required the Secretary to implement all of 
the outstanding Inspector General's recommendations. Once you get in, I 
would like to work with you to drain the swamp and create some basic 
level of accountability and checks and balances. You could install a 
new Director, in the interim, to begin the process, but I would still 
like to make some of these changes statutory. Will you work with me to 
help make these changes permanent?
    Answer. This is an important issue. As you know, Secretary Salazar 
recently launched an ethics reform initiative that is intended to 
reexamine the potential criminal conduct that the Inspector General 
wrote about, to look at restructuring the agency's oil and as royalty 
program, and to thoroughly review the Department's ethics regulations 
and policies. He has also met with Minerals Management Service 
employees in Colorado
    Question 66. Several basins in Oregon are going through major 
efforts to improve habitat, stream flows and provide adequate water 
supplies--the Klamath, Deschutes, Umatilla among others. These projects 
cut across agency departments. I want to work with you to establish a 
process that we can use to work through these issues on a basin by 
basin basis with your Department. Can I get your thoughts on how we 
might do that?
    Answer. I am happy to work with you to develop efficient and 
effective cross-departmental approaches to basin-specific projects.
    Question 67. The Deschutes Basin recently reintroduced endangered 
salmon and the communities, the Tribes, irrigators and Portland General 
Electric are all making great strides, with the Bureau of Reclamation 
and Fish and Wildlife support, to develop a Habitat Conservation Plan. 
Will you support your Department's continued involvement in these 
efforts?
    Answer. I know that Secretary Salazar supports these ongoing 
efforts, and if confirmed I will support them, as well.
    Question 68. I have a bill to expand the Oregon Caves National 
Monument boundary by 4,084 acres to include the entire Cave Creek 
Watershed, the management of which would be transferred from the United 
States Forest Service to the National Park Service. Last year at a 
hearing on this bill, the Park Service gave testimony that contradicted 
their long held position supporting expansion of the Monument 
boundary--a position held since the 1930's and articulated in the 
Monument's 1998 General Management Plan. I believe this was politically 
motivated. Can I get your commitment to look with fresh eyes at this 
legislation, which I will again be seeking to move this year?
    Answer. Yes, If confirmed, you have my commitment that I will 
review this legislation with fresh eyes.
    Question 69. There are a number of Tribes in my home state that 
face a number of challenges and are also involved in a whole host of 
projects involving the Department of Interior. As you know, this Bureau 
too has faced a number of criticisms of mismanagement and lack of 
responsiveness to needs within the Tribal community. In President 
Obama's announcement of Secretary Salazar's nomination, he acknowledged 
that among the many responsibilities is to help ensure that we live up 
to our treaty obligations and honor a nation-to-nation relationship 
with tribes. People often think the Bureau of Indian Affairs' has the 
only direct federal relationship with tribal governments. However, many 
tribes in Oregon and across the West have treaty reserved rights that 
extend beyond their reservations and are likely to be impacted by the 
other programs within Interior, such as management of parks and refuges 
and Bureau of Land Management lands and where activities might involve 
grazing, logging, irrigation, and mining. How will you go about 
ensuring that the federal relationship extends across all agencies and 
services in Interior and not just the BIA?
    Answer. Secretary Salazar has been clear in the importance of and 
his commitment to the consultation process with tribes by all Interior 
bureaus and agencies--not just the Bureau of Indian Affairs. If 
confirmed, I will work with Secretary Salazar to ensure that all 
corners of the Department are engaging in government-to-government 
relationships with the tribes.
    Question 70. How do you propose cleaning up the Bureau of Indian 
Affairs and creating trust once again between the Tribes and the 
Federal Government, especially following major legal challenges such as 
the Cobell v. Kempthorne lawsuit, that alleges mismanagement of the 
Government's trust obligation?
    Answer. As I noted at my confirmation hearing, our trust obligation 
is a challenge that I accept without hesitation. If confirmed, I will 
make certain that lines of communication are open and the sovereignty 
of tribes and their rights to self-determination and self-governance 
are fully recognized.
    Question 71. The Interior Department's compensable trust obligation 
to manage Indian lands is certainly equal to that owed by the US for 
the management of Forest Service or BLM public lands. And even while 
funding for managing those lands has been very woefully inadequate, BIA 
funding for managing these natural resources is just a fraction of that 
spent by other federal agencies. Shouldn't Indian trust resources 
receive the same level of support accorded similar public lands?
    Answer. If confirmed, I will ensure that the Department looks at 
the funding levels for the management of Indian lands as we develop our 
budget requests for the coming years.
    Question 72. A number of our Tribes are actively involved in 
alternative energy development. Do you have a vision to provide 
opportunities for Tribes to create alternative energy?
    Answer. I support efforts to increase economic development 
opportunities in Indian country through the development of alternative 
energy sources. As part of our plan to increase alternative energy 
resources for America, I expect the next Assistant Secretary for Indian 
Affairs to focus on this challenge.
    Question 73. The continuing uncertainty regarding unquantified 
Tribal water rights encumbers Tribal economic development and, in many 
cases, especially among treaty tribes in the Pacific Northwest, 
prevents the exercise of treaty-reserved fishing rights. Unquantified 
Tribal water rights also cloud non-Indian water rights and development 
in affected basins--and can be the source of conflict between Tribes 
and their surrounding communities. What are your plans as Secretary of 
the Interior to prioritize the settlement of Tribal water rights?
    Answer. If confirmed, I commit to looking at the Department's 
criteria and the overall process for settlement of Indian water rights.
    Question 74. A federal agency (non-Interior) began construction of 
a large-scale public works project on the Oregon side of the Columbia 
River without consulting with the tribes holding treaty fishing and 
access rights in the affected area. The resulting work stoppage could 
cost American taxpayers millions of dollars. Will the Department of 
Interior work with the White House to set the standards for adequacy 
and best practices in consultation with Indian Country?
    Answer. As I noted above, consultation is an important aspect of 
our relationship with federal tribes. I expect the Department to be a 
leader in ensuring that Federal agencies engage in consultation with 
affected tribes in connection with projects that impact these rights 
and interests.
    Question 75. Two blue ribbon independent assessments over the past 
16 years have found BIA per acre Forestry funding to be only about \1/
3\that of the U.S. Forest Service. (FY 1991 BIA per acre: $4.14, USFS 
per acre: $11.69. See An Assessment of Indian Forests and Forest 
Management in the United States, IFMAT 1 Report, November 1993, Table 
11, page V4. FY 2005 BIA per acre: $2.83, USFS per acre: $9.51. See 
IFMAT 2 Report, December 2003, Table 2, page 9.) Funding for ESA 
activities on Indian trust lands is only a quarter of that for BLM. (FY 
2008 BIA ESA: $1.228 million divided by 56 million trust acres = 
$00.02.19 (or 2.2 cents) per acre. FY 2008 BLM ESA: $22.3 million 
divided by BLM's 258 million acres = $00.08.6 (or 8.6 cents per acre). 
What will you do to ensure more parity in funding for Tribal lands?
    Answer. If confirmed, I will ensure that the Department looks at 
the funding levels for the management of Indian lands as we develop 
budget requests for the coming years.
    Question 76. The Umatilla Tribe's Umatilla River Basin settlement 
happens to have significant workforce employment, small business and 
on-farm economic and regional economic stimulus attributes. 
Importantly, this economic stimulus opportunity is in rural northeast 
Oregon. Literally hundreds of farms can be rescued and new agriculture 
on the Umatilla Indian Reservation can be developed. Will you advocate 
for and is the Administration planning to include Indian water rights 
settlement projects as part of actions nationwide?
    Answer. As I stated above, if confirmed I will commit to looking at 
the Department's criteria and the overall process for settlement of 
Indian water rights.
    Question 77. In the Umatilla Basin, the State, irrigators and the 
Confederated Tribe of the Umatilla Indian Reservation have worked hard 
and support the Department of Interior's two related and continuing 
studies: Indian Water Rights Assessment study (due mid-2009) and 
Reclamation's water supply study (also due mid-2009). Can you commit to 
ushering these studies forward and using them as the basis to construct 
a comprehensive project to meet water needs in the basin?
    Answer. I can commit to examining this issue and working to ensure 
the completion of these studies in a timely manner. I would want to 
examine them and understand the financial implications before I commit 
to the construction of a comprehensive project.
    Question 78. What are your views on funding for habitat 
conservation plans under section 10 of the Endangered Species Act? 
Currently, mitigation funding as well as funding to maintain habitats 
are woefully absent. Will you provide leadership to better balance 
funding for mitigation and maintenance to off-set the impacts of 
development in listed species critical habitats?
    Answer. I am committed to finding ways to make the Endangered 
Species Act work for landowners affected by the requirements of the 
Act. If confirmed, I will work with Secretary Salazar and the 
Department's staff on this important issue.
    Question 79. S. 22, the Omnibus Public Land Management Act of 2009 
includes a provision extending the Department's authority to enter into 
cost-shared programs to protect endangered salmon and other species in 
the Northwest. This program funds fish screens, diversions, and other 
measures that prevent these endangered fish from being inadvertently 
diverted into irrigation systems and has been extremely cost effective. 
The new bill would extend the Fisheries Restoration and Irrigation 
Mitigation Act (FRIMA) until the year 2015. If confirmed, would you 
commit to fund the FRIMA program?
    Answer. While I cannot make funding commitments, as funding 
Interior programs is decided through the Administration's budget 
process, in consultation with the Office of Management and Budget, I 
can commit to look at the issue of funding for the FRIMA program, 
should I be confirmed.
     Responses of David J. Hayes to Questions From Senator Bennett
    Question 80. Mr. Hayes, I remain interested in knowing more about 
the December 2008 Utah Oil and Gas leasing situation and would like 
your office to provide the following information.
    Please provide the Committee with a list of each of the original 
parcels nominated along with who nominated each parcel to be considered 
by the BLM for lease for the fall 2008 lease sale. If you can't provide 
individual names, or company names please tell us if the lease request 
came from a company, individual known to work in the oil or gas 
industry, or from an individual who is not known to work in the oil or 
gas industry.
    Answer. I understand that after an oil and gas lease sale, the BLM 
will make information available about the parcels sold and successful 
bidders. However, the BLM does not release information regarding 
original expressions of interest for parcels to be included in an oil 
and gas lease sale unless and until those parcels are actually offered 
at an auction and then only upon request. This is considered to be 
proprietary information. Releasing this information could expose the 
nominating party's exploration and development strategies to their 
competitors and affect the integrity of the auction process and the 
value of bid received. In this instance, all of the nominating entities 
were either known industry representatives or individuals who work with 
industry. The BLM advises me that it has not received requests for 
leasing from individuals not known to work in the oil and gas industry. 
If confirmed, I will ensure that the BLM provides you with a copy of 
the appropriate information related to this lease sale.
    Question 81. Please provide the Committee with a detailed 
administrative record to show the process BLM used to add parcels to 
the list for the sale.
    Answer. I am advised that the BLM compiles an Administrative Record 
for each of its oil and gas lease sales. If confirmed, I will ensure 
that the BLM transmits to you a copy of the appropriate records for the 
December 19, 2008, Utah oil and gas lease sale.
    Question 82. Please provide detailed justifications for withdrawing 
each of the 77 parcels.
    Answer. As you know, Secretary Salazar has expressed his goal of 
ensuring that oil and gas resources are developed in a thoughtful and 
balanced way that complies with all legal requirements. The 77 leases 
in questions were the subject of a court challenge that led to the 
entry of a restraining order by a federal district court judge. The 
court concluded that it did not appear that all legally-required 
environmental analysis had been completed for the leases, and that 
irreparable harm could occur if the sale of those particular leases 
were to go forward. The 77 leases that Secretary Salazar withdrew from 
the sale were the same 77 leases that the court enjoined from sale on 
this basis. Secretary Salazar removed the leases from the sale to 
provide an opportunity to review the legal adequacy of the sale. He has 
committed to undertake that review and, if confirmed, i will work with 
you as that review proceeds. I understand that, upon completion of this 
review, it is possible that some of these parcels may be offered in 
future lease sales.
    Question 83a. Mike Snyder, National Park Service Regional Director 
for the Intermountain Region said regarding NPS' work with the BLM on 
this lease sale that working with Selma Sierra, the BLM Utah State 
Director, has resulted in the kind of resource protection that 
Americans want and deserve for their national parks.'' A BLM press 
release from November 25, 2008 indicated that the BLM had agreed to 
defer all parcels of concern to the Park Service from the sale.
    Was the BLM required by federal law to coordinate with the National 
Park Service regarding this lease sale?
    Answer. I am advised that while the BLM is not required by law to 
coordinate with other agencies regarding lease sales, as a regular part 
of the agency's collaborative process the BLM coordinates its review of 
parcels in advance with other land managing agencies that could be 
impacted by a lease sale. In this case, I am told that the BLM 
coordinated with the National Park Service on the through the 
preparation of a Natural Resources Management plan, but not the lease 
sale itself
    Question 83b. Please provide details of all communications and 
copies of all correspondence between the Bureau of Land Management and 
the Department with the National Park Service regarding this lease 
sale.
    Answer. I am advised that the BLM compiles an Administrative Record 
for each of its oil and gas lease sales, which would include 
correspondence with the National Park Service. If confirmed, I will 
ensure the BLM transmits to you a copy of the appropriate records for 
the December 19, 2008, Utah oil and gas lease sale.
    Question 84. In Secretary Salazar's February 6, 2009 memo to State 
Director Selma Sierra, he directed the 77 leases be withdrawn and any 
money received by the BLM in connection with the leases to be refunded. 
In his press statements, (and in your remarks before the committee) the 
Secretary indicated that a review would be initiated to reexamine these 
leases.
    Please provide the Committee with a detailed plan for that review, 
including who will undertake the review, who within the BLM, MMS, NPS, 
or other agencies within the Department will participate in the review, 
who will lead the review, and deadlines for accomplishing the review.
    Answer. As noted in my response to question 82, Secretary Salazar 
has expressed his goal of ensuring that oil and gas resources are 
developed in a thoughtful and balanced way that allows for protection 
of signature landscapes and cultural resources. In withdrawing the 77 
leases from the Utah sale, Secretary Salazar announced that he was 
doing so in order to take a fresh look at the environmental review and 
analysis performed on these parcels, and to ensure that there was 
adequate consultation with other agencies.
    Due to ongoing litigation surrounding this lease sale, I understand 
that the BLM has not yet begun this review and is currently working 
with the Solicitor's Office on how best to proceed. If confirmed, I 
commit to keeping you fully informed as this situation evolves.
    Question 85. Additionally, is it the BLM or Secretary's intention 
to include any public hearings or meetings in relation to this review, 
and if so, how many and where they will be held?
    Answer. Due to the ongoing litigation surrounding this lease sale, 
I understand that the BLM has not yet begun this review and is 
currently working with the Solicitor's Office on how best to proceed. 
If confirmed, I commit to keeping you fully informed as this situation 
evolves.
    Question 86. As soon as that review is completed I would like your 
office to send a copy of that review, its recommendations, and the 
Secretary's decisions on these leases to the Committee.
    Answer. As I noted in my response to the previous answer, due to 
the ongoing litigation surrounding this lease sale, I understand that 
the BLM has not yet begun this review and is currently working with the 
Solicitor's Office on how best to proceed. If confirmed, I commit to 
keeping you fully informed as this situation evolves.
    Question 87. Does the BLM intend to make changes to its policies 
and procedures regarding who is eligible to bid on leases to prevent 
the type of bidding manipulation that occurred in the December lease 
sale from happening again? If so, what and when?
    Answer. I am aware that the BLM is in the process of evaluating 
policy and procedural options for the management of oil and gas lease 
auctions. If confirmed, I will work with the BLM to continue to look 
for ways to improve the lease sale process and to ensure that no 
manipulation of lease sales can occur.
    Question 88. Please provide for each of the 77 parcels the earliest 
date upon which the parcel originally became available for leasing. In 
other words, when did the BLM first decide in a planning document 
(prior to the RMPs that were approved last year) that each parcel was 
open for oil and gas development and could therefore be nominated for 
leasing?
    Answer. It is my understanding that each of the 77 parcels was 
available for leasing under the planning documents that pre-dated the 
2008 revised Resource Management Plans (RMPs). These included the 
Diamond Mountain RMP (1994), Book Cliffs RMP (1985), Price River 
Management Framework Plan (1982), San Rafael RMP (1991) and the Grand 
RMP (1985).
    Question 89. Please provide the committee with estimates of oil and 
gas resources within the 77 parcels.
    Answer. It is my understanding that accurate estimates of oil and 
gas resources that may be present beneath the 77 parcels cannot be 
determined or quantified due to the largely exploratory nature of those 
resources. It is also my understanding that the associated Resource 
Management Plans and Mineral Reports suggest that the majority of the 
parcels have high potential for oil and gas occurrence, and the 
northernmost parcel in the Vernal planning area is considered to have 
moderate to low potential (source: Inventory of Onshore Federal Oil and 
Natural Resources and Restrictions to Their Development, U.S. 
Department of the Interior, Department of Aariculture, and Department 
of Energy, May 2008)
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                        The Humane Society,
                                    Washington, DC, March 17, 2009.
Hon. Jeff Bingaman,
Chairman, U.S. Senate, Committee on Energy and Natural Resources, 304 
        Dirksen Senate Office Building, Washington, DC.
    Dear Chairman Bingaman: On behalf of the 11 million supporters of 
The Humane Society of the United States (HSUS), and its international 
arm, Humane Society International (HSI), I write to urge the 
confirmation of David Hayes as Deputy Secretary of the Interior.
    Mr. Hayes is a highly qualified candidate who has devoted much of 
his life, professionally and personally, to maintaining and enhancing 
environmental quality. As you know, he has already served this nation 
ably as Deputy Secretary of the Interior under Bruce Babbitt. Moreover, 
through his actions as a private attorney he has consistently 
represented and supported the public interest through legal advocacy on 
behalf of wildlife and the environment. As Chairman of the 
Environmental Law Institute, and at Hogan and Hartson, and at Latham 
and Watkins, Mr. Hayes has shown unique dedication to promoting and 
enhancing public interest pro bono work. He has represented a diversity 
of parties on natural resource issues, and we have found him to be a 
moderate, thoughtful leader who works hard to find common ground in an 
area that is often hampered by a lack of meaningful discourse and 
cooperation among the various stakeholders. It is our conviction that 
such background and experience will serve him well in supporting the 
Obama Administration's and Secretary Salazar's efforts to ensure that 
the Department of the Interior can meet the myriad challenges it will 
face in the years ahead.
    Our organization has a tremendous interest in the activities of the 
agency, including its work on the Endangered Species Act (ESA), the 
Convention on International Trade in Endangered Species of Wild Fauna 
and Flora (CITES), the Migratory Bird Treaty Act, the Wild Horse and 
Burro Program, and its efforts on such topics as non-lethal predator 
control, the exotic pet trade, the importation of sport-hunted trophies 
of protected species, wildlife penning, and hunting in National Parks 
and National Wildlife Refuges.
    From our perspective as the nation's largest animal protection 
organization, and our work here and abroad, the Department of Interior 
is a crucial policy-making agency. We at HSUS/HSI look forward to 
working with you and your colleagues, with Secretary Salazar, with 
Deputy Secretary Hayes, and with others within the Department of the 
Interior, to ensure meaningful animal protection in all of the arenas 
where its jurisdiction applies.
            Sincerely,
                                             Wayne Pacelle,
                                                   President & CEO.
                                 ______
                                 
                                       World Wildlife Fund,
                                    Washington, DC, March 11, 2009.
Hon. Jeff Bingaman,
Chair, Committee on Energy & Natural Resources, 304 Dirksen Senate 
        Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Committee on Energy & Natural Resources, 304 Dirksen 
        Senate Building, Washington, DC.
    Dear Senator Bingaman and Senator Murkowski: I am writing to 
express the strong support of the World Wildlife Fund (WWF) for the 
appointment of David Hayes as Deputy Secretary of the Interior.
    Since August 1, 2007 until his nomination, Mr. Hayes served as 
Senior Fellow at WWF. As Senior Fellow, Mr. Hayes has been a key 
advisor on forestry issues, specifically on reducing carbon emissions 
from deforestation, and has played an integral role in developing WWF's 
public policy strategy and has testified before Congress on behalf of 
the organization on those issues. He is a superb strategist on 
conservation issues and brings a practical approach to solving 
environmental challenges.
    Mr. Hayes previously served as the Deputy' Secretary of the 
Interior under then-Secretary and current WWF Chairman Bruce Babbitt. 
With the nomination of Mr. Hayes for Deputy Secretary. President Obama 
and Secretary Salazar have again demonstrated their commitment to sound 
science and experienced leadership within the highest levels of the 
administration.
    Mr. Hayes brings many years of experience and extraordinary talent 
to the number two post in the Interior Department, While we will miss 
Mr. Hayes here at WWF, we are proud that he is answering the call to 
serve and were extremely gratified that the enormously consequential 
policies of the Department of the Interior will be entrusted to him and 
Secretary Salazar.
    We look forward to the Committee's expeditious and unanimous 
approval of his appointment, and his unanimous confirmation by the U.S. 
Senate.
            Most sincerely,
                                         Carter S. Roberts,
                                                 President and CEO.
                                 ______
                                 
                            The Nature Conservancy,
                                      Government Relations,
                                     Arlington, VA, March 11, 2009.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Bingaman and Senator Murkowski: On behalf of The 
Nature Conservancy's one-million members, it is with great pleasure 
that I write to you and urge your support in the confirmation of David 
Hayes as Deputy Secretary of the U.S. Department of the Interior.
    Mr. Hayes has had an illustrious career in government, law, and 
environmental conservation. His breadth of experience in the public and 
private sector provides him with a unique perspective that is so 
necessary to the Department's mission. Mr. Hayes has played a leading 
role in some of the Department's most important work, including the 
Bay-Delta ecosystem restoration project, conservation of some of our 
most threatened lands, endangered species protection, and energy 
development. He has extensive experience with climate change and has 
supported several conservation organizations through his service on 
various Boards (American Rivers, and the Environmental Law Institute).
    The Nature Conservancy is pleased that someone with Mr. Hayes range 
of experience in water, public lands, and conservation has been 
nominated for this crucial assignment. The Nature Conservancy strongly 
urges you to support Senator Salazar's nomination.
            Sincerely,
                                            Robert Bendick,
                                                          Director.

                                    

      

</pre></body></html>
